AUDIT OF THE UNITED STATES MARSHALS 

    SERVICE COMPLEX ASSET TEAM 

    MANAGEMENT AND OVERSIGHT


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 11-42 

             September 2011


     REDACTED – FOR PUBLIC RELEASE
 
 
 
        AUDIT OF THE UNITED STATES MARSHALS SERVICE 

       COMPLEX ASSET TEAM MANAGEMENT AND OVERSIGHT 


                                                          EXECUTIVE SUMMARY* 


      The Department of Justice (DOJ) may seize and then compel forfeiture
of assets used in or acquired through illegal activity.1 Such assets may
include cash, bank accounts, vehicles, jewelry, stocks, real estate and
operating businesses. The United States Marshals Service (USMS) Asset
Forfeiture Division manages and disposes of properties seized and forfeited
by federal investigative agencies and U.S. Attorneys nationwide. As of
March 2011, the USMS held seized assets estimated to be worth over
$3.8 billion, with cash and other financial instruments comprising about
93 percent of these assets’ estimated value.

       The Complex Asset Team within the Asset Forfeiture Division works
with USMS district personnel to help secure, appraise, and dispose of assets
requiring specialized commercial expertise, including operating businesses,
complicated financial instruments, and large commercial real estate
properties. In recent years, the size and complexity of the Complex Asset
Team’s asset portfolio have grown with the greater sophistication of
multimillion-dollar financial crimes – such as those perpetrated by high-
profile, white-collar criminals including Bernard Madoff – that yield
forfeitable assets. Mismanagement of these complex seized assets can
diminish the value of seized assets, result in excessive asset management
costs, and expose the government to lengthy litigation with potential
claimants. Any improprieties associated with asset forfeitures also can
generate public distrust that can undermine the legitimacy of asset forfeiture
as a tool for combating crime.

       The DOJ Office of the Inspector General (OIG) recently conducted an
investigation into an allegation that Leonard Briskman, the lead career
official with the Complex Asset Team, owned a private appraisal business
that presented a conflict of interest with his official USMS duties, which
                                                            
       * The full version of this report contains information that may be protected by the
Privacy Act of 1974, 5 U.S.C. § 552(a) or may implicate the privacy rights of identified
individuals. Therefore, the Office of the Inspector General redacted portions of the full
report to create this public version of the report.
              1
          Seized assets are assets taken via administrative or judicial action pending an
appeal process, while forfeited assets are assets officially forfeited to the government under
a final order or decree of forfeiture.
               
involved valuing and selling assets. The investigation did not substantiate
the allegation made against Briskman, but concerns about potential
irregularities in the USMS’s management of complex assets prompted the
OIG to conduct this audit of Complex Asset Team operations between 2005
and 2010.

OIG Audit Approach

       The objective of this audit was to assess how the USMS managed and
oversaw seized and forfeited assets that USMS district offices referred to the
Complex Asset Team. Considering that some complex assets require years
to manage and dispose of properly, the audit reviewed a five-year period
beginning in January 2005 (about the time Briskman started his outside
asset valuation business) and ending in April 2010 (when the USMS
transferred Briskman out of the Complex Asset Team). We interviewed
Briskman, Asset Forfeiture Division executives, Complex Asset Team
employees, and over 25 other officials involved with the DOJ Asset Forfeiture
Program in the Washington, D.C., metropolitan area and the Southern
District of New York. Our audit also included a review of the Asset Forfeiture
Program’s asset tracking system, the Consolidated Asset Tracking System
(CATS), as well as Briskman’s files at the time of his administrative transfer.

       To assess the adequacy of internal controls employed by the Complex
Asset Team, the audit analyzed USMS policies and procedures and reviewed
the Team’s asset files to evaluate its methods for tracking, appraising, and
selling assets. We also reviewed the management techniques Asset
Forfeiture Division executives employed to ensure that necessary controls
guided the operations of the Complex Asset Team. Appendix I contains a
more detailed description of our audit objective, scope, and methodology.

Results in Brief

       The Complex Asset Team is responsible for helping USMS district
offices manage and safeguard unique and complicated assets such as
operating businesses, financial instruments, and commercial real estate
properties. The responsibilities of the Complex Asset Team therefore span
various phases of the DOJ asset forfeiture process, including pre-seizure
planning, recordkeeping, valuation, and disposition. This audit identified
numerous deficiencies in the procedures the Complex Asset Team
implemented to track, safeguard, value, and dispose of complicated and
valuable assets. Moreover, we determined that even though the types of
assets that the Complex Asset Team helps manage are commonly those
most at risk of mismanagement, the USMS Asset Forfeiture Division did not


                                       ii
vigorously oversee Complex Asset Team decisions on how to administer
assets.2

       Pre-seizure planning is designed to identify potential obstacles in the
asset forfeiture process that may expose the government to unnecessary
risk, such as seizing assets with limited equity and becoming involved in
protracted litigation with third-parties who may have larger interests in the
assets. As such, pre-seizure planning is necessary to help the USMS and
other DOJ Asset Forfeiture Program partners guide complex assets, such as
operating businesses, through the forfeiture process. Our audit determined
that because the Complex Asset Team has not instituted consistent pre-
seizure planning procedures, the government has assumed responsibility for
assets with significant liabilities that constrain the ability of the government
to dispose of these assets.

       Our audit found that the Complex Asset Team did not consistently
track and document how assets it was responsible for were managed,
appraised, and disposed. The Complex Asset Team provided us a list of 55
assets it disposed of between 2005 and 2010. The final values listed for
each asset ranged from $1 to $49 million. Our review of this list revealed at
least eight assets for which the ultimate purchaser or the final sale price was
not recorded. Further, of the 55 disposed complex assets listed, we were
able to locate corresponding files for only 47 of the assets. Additionally, our
file review identified files related to 35 additional assets that were not
detailed on a Complex Asset Team inventory of all assets.

      Further, we found the Complex Asset Team also lacked procedures to
ensure that team members charged with valuing an asset were prevented
from also selling the same asset. In multiple instances, Briskman valued
and sold the same asset himself, without sufficient supervisory oversight or
review by other team members. Additionally, in an effort to simplify the
asset disposal process, Briskman did not publicly announce the sale of some
complex assets, which we found limited the ability of the general public to
purchase assets. Briskman also made these decisions without sufficient
oversight by his supervisor. This lack of transparent procedures and
                                                            
              2
          Assistant Director Eben Morales stated that the USMS Asset Forfeiture Division
lacked the expertise and resources necessary to oversee Complex Asset Team decisions
effectively. Morales stated said that upon assuming his role as leader of the program in
2007, he requested an independent workforce analysis of the Asset Forfeiture Division,
which included the Complex Asset Team operations. Subsequent USMS budget requests
also sought funding for additional Complex Asset Team employees and contractors who
would work in USMS district offices and have ancillary complex asset duties. However,
because Morales said he was unable to change how Briskman documented and
communicated asset decisions, we do not believe these new positions would have improved
how the Complex Asset Team and Asset Forfeiture Division managers worked together.

                                                               iii
oversight in the asset valuation and disposition process caused an Assistant
U.S. Attorney (AUSA) from the Southern District of New York to lose
confidence in the Complex Asset Team’s ability to sell two assets derived
from the Bernard Madoff criminal case.3 To ensure transparency and
oversight in asset disposal and valuation functions, these duties should be
segregated so that appropriate asset valuation and solicitation procedures
are not compromised for the sake of an expedient sale.

      Given the deficiencies our audit identified in Complex Asset Team
operations, we reviewed the Asset Forfeiture Division’s overall management
of the Team. We found that Briskman’s direct supervisor, Assistant Director
of the Asset Forfeiture Division Eben Morales, did not implement formal
approval structures for decisions involving complex assets, which afforded
Briskman the final authority to make significant asset decisions with little or
no oversight.

     We also determined that Complex Asset Team decisions and
operations – specifically those regarding assets restrained instead of
formally seized – were not subject to internal or external reviews. Although
Morales told us he was aware of this oversight deficiency, he had not
addressed it at the time of our audit.

       Additionally, we found that the limited staff and resources of the
Complex Asset Team were disproportionate to its responsibilities. From
2005 to 2009, the number of staff varied between two and four individuals.
Although Morales took steps to increase accounting and valuation expertise
within the Asset Forfeiture Division at-large by requesting and hiring
additional employees and contractors, including 14 forfeiture financial
specialist contractors beginning in 2009, these efforts were primarily
designed to ensure financial compliance in USMS district offices rather than
to improve the capabilities of the Complex Asset Team. Further, because
complex assets require legal counsel, the burden of identifying legal issues
fell upon the Complex Asset Team without any proactive review by the USMS
Office of General Counsel.

      In our report, we make 20 recommendations to assist the USMS and
Justice Management Division (JMD) in improving Asset Forfeiture Division
operations with specific attention to ensuring the transparency of Complex
Asset Team operations.



                                                            
              3
         According to Morales, AUSAs up until this point had only provided positive
feedback regarding Briskman’s performance.

                                                               iv
      Our report contains detailed information on the full results of our
review of USMS management of complex assets. The remaining sections of
this Executive Summary summarize in more detail our audit findings.

Background

       Three DOJ components manage particular aspects of the Asset
Forfeiture Program. The Criminal Division’s Asset Forfeiture and Money
Laundering Section (AFMLS) implements policies governing DOJ asset
forfeiture revenue. The Justice Management Division’s Asset Forfeiture
Management Staff (AFMS) administers CATS – which other DOJ components
use to enter and track asset information. AFMS also administers the Assets
Forfeiture Fund (Fund), which holds proceeds from the sale of assets. The
USMS is responsible for managing, valuing, and disposing of seized and
forfeited assets.  

       Within the USMS Asset Forfeiture Division, the Complex Asset Team
works with USMS district offices to manage and dispose of assets that
require specialized knowledge and expertise, including operating businesses,
various financial instruments (such as stocks, bonds, and bank accounts),
and commercial or high-value real property. The Team also may assist on
any asset that presents a particular challenge to the districts. As shown in
the chart below the Complex Asset Team disposed of approximately $136
million in complex assets between January 2005 and August 2010.




                                     v
           ASSETS DISPOSED BY THE COMPLEX ASSET TEAM
                 (JANUARY 2005 to AUGUST 2010)


                                   Commercial
                                     Business
                 Cash              $3,185,000                  Other
               $109,086             (4 assets)               $501,371
               (1 asset)                                     (4 assets)

                                                   Real
                                                 Property
                                               $31,948,823
                                                (7 assets)
                             Financial
                            Instrument
                           $100,915,793
                            (39 assets)




                             Total = $136,660,073
       Source: Records compiled by the USMS Complex Asset Team

      The Complex Asset Team has become responsible for administering
increasingly intricate and valuable assets. For instance, the Complex Asset
Team recently became responsible for administering assets seized as a
result of investigations into multi-million dollar financial frauds. Since 2005,
this Team consisted of Briskman and up to four other staff members, until
Briskman’s administrative transfer in April 2010.




                                          vi
Pre-Seizure Planning

       To manage and dispose of complex assets successfully, the USMS, the
U.S. Attorney’s Office (USAO) responsible for prosecuting the case, and the
investigative law enforcement agency should conduct pre-seizure planning to
mitigate the risk that the government will assume unnecessarily difficult
problems. To ensure effective pre-seizure planning, the Complex Asset
Team should begin the planning process as soon as the USAO or
investigative agency becomes aware that complicated or potentially high-
value assets will be targeted for forfeiture. According to DOJ and USMS
policies, the Complex Asset Team and other Asset Forfeiture Program
partners must consider the following questions during pre-seizure planning:
(1) What is being seized? (2) Should the asset be seized? (3) How and
when will the asset be seized? (4) Are there any anticipated management
and disposition problems? (5) Is publicity anticipated with regard to the
seizure? (6) Is the asset an operating business or a complicated financial
instrument?

       According to Asset Forfeiture Program and USAO pre-seizure planning
guidelines, the USMS should be notified once assets are targeted for
forfeiture. However, our review of USMS records could not ascertain
whether the Complex Asset Team was consistently notified by USMS district
offices, USAOs, or investigative agencies that an asset was about to be
seized. The Complex Asset Team’s interagency responsibilities and
specialized experience handling different types of assets make it unique
among the other participants in the Program. We believe that the Complex
Asset Team can perform a critical role in different aspects of the asset
seizure and management process, especially when deciding to seize an asset
and in building institutional knowledge needed to help the Asset Forfeiture
Program handle future assets efficiently and effectively. Unique,
complicated, or unpredictable assets should therefore be referred to it when
local USMS districts do not have the skills or experience to manage the
assets easily. Furthermore, USAOs and investigative agencies should
consult with the Complex Asset Team when assets of this nature are
considered for seizure.

      When the Complex Asset Team received pre-seizure planning requests
for assistance with assets, it did not employ a standard process to track
these requests. We consequently could not determine whether USAOs,
investigative agencies, or USMS district offices consistently notified the
Complex Asset Team that a unique or complicated asset was about to be
seized or if the Team adequately addressed all pre-seizure assistance
requests. Therefore, we recommend that the USMS develop standard
procedures that require the Complex Asset Team to track pre-seizure notices

                                     vii
received from USAOs, investigative agencies, or USMS district offices and
assistance provided with regard to these assets.

      Prior to the government taking control of an operating business, the
Complex Asset Team should collaborate with USAOs or investigative
agencies to develop a business plan for the asset that outlines how the
business should be handled and safeguarded through the forfeiture process.
USMS policies generally describe that these business plans should:
(1) assess the financial status of the asset, (2) determine whether the asset
should continue operating, (3) clarify the responsibilities of various agencies
involved in the seizure or restraint, and (4) assess whether the USMS needs
additional resources to manage and dispose of the asset properly.

        USMS personnel who worked with Briskman said that he believed
formal operating business plans might result in limiting the discretion
required to make future asset management decisions. In addition, Briskman
stated that it was often very difficult to obtain financial records prior to
taking control of an asset. As a result, Briskman explained that he regularly
used his business experience and on-site observations to determine the
viability of businesses targeted for the purpose of advising other members of
the Asset Forfeiture Program. For example, while on-site at a particular
facility with agents investigating the owner of a waste management
corporation, Briskman said he assessed the economic viability of the
business by noting the number of garbage trucks traveling back and forth.

       The Complex Asset Team did not employ a consistent approach to
preparing pre-seizure operating business plans. Although the lack of
available information prior to seizure or restraint can hinder the Complex
Asset Team’s ability to conduct a thorough analysis of an operating business
prior to restraint or seizure, the Complex Asset Team should still document
its attempts to obtain the information necessary to prepare a business
operating plan that addresses USMS policy requirements. The informal
approach Briskman employed to assess the viability of assets prior to
restraint or seizure risked overlooking important factors. Specifically with
regard to the waste management facility noted above, neither Briskman’s
reliance on observations of on-site activity nor subsequent administrative
activity identified the effect legal restrictions and tax liabilities would have on
the sale of the business. Instead, we found that the effect of these issues




                                        viii
became apparent only when the USMS tried to dispose of the business about
a year later.4

      The USMS should therefore ensure that the Complex Asset Team
prepares pre-seizure business plans consistently, and it should also require
that responsible officials evaluate the sufficiency and completeness of these
reviews.

Complex Asset Team Recordkeeping

       In March 2010, the USMS formally updated its guidelines to define a
“complex asset” as a(n) operating business, commercial real estate, or
financial instrument (including marketable and non-marketable securities,
interests in partnerships and insurance policies) that may have value.
According to CATS, between January 2005 and December 2009, the USMS
disposed of about 10,000 assets worth over $3.52 billion that would have
been categorized as complex assets under the March 2010 definition.
However, according to USMS headquarters records, between 2005 and 2010
the Complex Asset Team disposed of only 55 assets with a value of $136
million referred to it by district offices. This means that the Complex Asset
Team’s asset portfolio constituted just a fraction of the total number of
seized or restrained businesses and financial instruments, assets that USMS
policy now defines as complex.

       Because the Complex Asset Team has been involved in only a fraction
of assets that meet the categorical complex asset definition, there is a risk
that district offices are administering and disposing of businesses,
commercial real estate properties, and complicated financial instruments
without soliciting the input of the Complex Asset Team. According to Asset
Forfeiture Division personnel, many USMS district offices do not have the
personnel with the experience and skills required to manage and dispose of
these assets properly. We therefore recommend that the USMS clarify its
policy – specifically its definition of complex assets – to ensure that district
offices know what types of assets merit Complex Asset Team assistance.

      The USMS was not able to provide to us asset files for 8 of the 55
assets it reported disposed by the Complex Asset Team between 2005 and
2010. As a part of the audit, we also reviewed documents at USMS
                                                            
              4
         Once the waste management corporation was forfeited in February 2009, the
USMS began selling discrete portions of the business. The USMS then determined that it
could not sell certain parts of the business without addressing how to handle the
corporation’s liabilities, such as state and local taxes. As a result, portions of the
corporation remained unsold at the time of the audit.


                                                               ix
headquarters and identified 35 additional files that appeared to be for assets
that were not on the Complex Asset Team asset list.5 We subsequently
asked Asset Forfeiture Division managers and Complex Asset Team
members for any additional information regarding the 35 files identified. To
date, the USMS has not provided us information to: (1) explain the disparity
between the original inventory of 55 assets and the 35 additional files we
found at USMS headquarters or (2) demonstrate that it has properly
safeguarded and accounted for assets pertaining to the 35 files we identified.

       We determined that the Complex Asset Team did not maintain a
comprehensive log of the requests from USMS district offices, USAOs, and
investigative agencies for assistance with assets during the seizure and
forfeiture process. We also found that the Complex Asset Team did not
maintain organized and complete records of its own activities. As a result,
the Complex Asset Team could not determine the extent of its involvement
in requests for assistance, nor could the OIG assess the appropriateness of
the Team’s asset management decisions. To ensure that district offices
receive Complex Asset Team advice on all assets that require its specialized
assistance, the USMS should develop procedures to require the Complex
Asset Team to track incoming notifications, requests, and referrals of assets
consistently. In addition, because CATS is the primary tracking system
employed by the DOJ Asset Forfeiture Program, we recommend that JMD
update CATS so that local USMS district offices and the USMS Asset
Forfeiture Division can use CATS to identify whether an asset is a complex
asset that is being managed by the Complex Asset Team.

Asset Valuation and Dispositions

       The Complex Asset Team is charged with both appraising assets at fair
market value and finding buyers for forfeited assets. Adequate internal
controls regarding asset administration should preclude the same person
from both appraising and selling the same asset. This is because an
appraiser is responsible for determining the fair market value of an item
while the seller is primarily interested in securing buyers for an item. The
seller’s interest in quickly finding a buyer can conflict with the appraiser’s
interest in setting a fair price.



                                                            
              5
          Complex Asset Team files were labeled by case name or descriptive title. To
determine what asset each of the 35 files pertained to, we reviewed the files for CATS asset
identification numbers, which we then used to identify the asset. We could not identify the
associated asset identification number in 14 of the 35 files and therefore were not able to
determine the particular asset the file pertained to (or even whether the file pertained to a
particular asset).

                                                               x
      We determined that the Complex Asset Team did not employ
procedures that segregated appraisal duties from selling functions.
Briskman both valued and disposed of the same assets himself. We did not
find evidence to suggest that this lack of segregation of duties resulted in
personal gain for Briskman. However, we believe that the USMS should
implement strong internal controls by having different Complex Asset Team
members perform appraisal and selling duties.

      We also found that the Complex Asset Team lacks clear guidelines
regarding how to value different types of assets properly. According to
internal USMS policy, a professional assessment of the value of any
business, including commercial properties, is required before an asset can be
sold. Briskman explained that, as a certified appraiser, he personally
performed many complex asset appraisals in order to minimize the cost of
obtaining asset values from outside valuation professionals. However, when
determining asset values, neither Briskman nor the Complex Asset Team
followed formal appraisal procedures. We believe that the lack of formal
procedures undermined the integrity of the valuations performed by the
Complex Asset Team. Our audit therefore recommends that the Complex
Asset Team develop standard asset valuation procedures.

       According to federal statutes, the government is to dispose of forfeited
assets publicly or otherwise by “commercially feasible means.” Generally,
this means that the sale of forfeited assets should be a public process
whereby market forces can work to determine the value of an asset. We
found a general lack of procedures governing the Complex Asset Team’s
asset disposal process, which often resulted in a lack of public exposure for
forfeited assets.

       The informal valuation and disposal procedures employed by the
Complex Asset Team under Briskman led an AUSA from the Southern
District of New York to question whether the team or the USMS could
properly manage and dispose of two assets seized as part of the Bernard
Madoff criminal forfeiture case: over one million shares in PetCare Rx
(PetCare), an online pet prescription firm, and a 5 percent share of the Delta
Fund, an investment portfolio of foreign technology companies. In preparing
to sell these assets, Briskman said that he did not publicly announce the
sales because he believed the potential market of buyers was restricted by
the nature of existing partnerships tied to the assets.6 Therefore, Briskman
                                                            
              6
          Briskman said he believed that only licensed brokers could publicly offer shares in
closely held, private companies and limited partnerships. However, the USMS Office of
General Counsel issued an opinion in May 2010, after Briskman’s transfer, stating that
securities regulations permit the government to offer shares in closely held companies and
limited partnerships publicly in certain circumstances.

                                                               xi
attempted to sell them to existing partners. When Briskman informed the
AUSA handling the Madoff case of his proposed sales, the AUSA resisted
both of Briskman’s proposals because the AUSA believed his methods for
valuing the assets, locating buyers, and negotiating sales were not
transparent.

      We believe that the Complex Asset Team’s informal approach to the
valuation and disposal of assets undermined its perceived competency
among DOJ Asset Forfeiture Program partners. In fact, after the conflict of
interest allegation was made against Briskman, the AUSA handling the
Madoff forfeiture case requested and received approval to hire an external
contractor to restart the disposition process for these Madoff assets instead
of working with the Complex Asset Team. Because the standards governing
public offerings of certain complex assets are not straightforward, we
recommend that the USMS implement detailed policies outlining the
circumstances in which the Complex Asset Team should employ a public
process to dispose or sell assets.

Complex Asset Team Oversight

      Given the level of the procedural deficiencies we found within the
Complex Asset Team, we reviewed the management approach employed by
USMS Asset Forfeiture Division leadership over the Team. The current
Assistant Director of the Asset Forfeiture Division, Eben Morales, served in a
supervisory role over Briskman throughout our audit scope. Briskman
provided Morales with case updates by sending a monthly summary
containing a brief description of the status of each case actively managed by
the Complex Asset Team. However, we did not find evidence that Briskman
provided Morales with accurate and sufficiently detailed information about
complex asset activity. We found that Briskman’s monthly asset activity
reports were often brief summaries that lacked critical details and at times
were inaccurate.

       Additionally, the Asset Forfeiture Division did not apply a formal
approval structure for decisions involving complex assets with the highest
value and risk. Briskman had the final authority on many significant asset
decisions, including how to dispose of complex assets. We found that
Morales and his management team did not need to approve many of
Briskman’s decisions, and therefore Morales and his team were not in a
position to: (1) identify potential problems readily, (2) ensure that the
Complex Asset Team adhered to applicable procedures, or (3) oversee
whether asset administration duties were delegated appropriately. In fact,
Morales said he realized that complex asset files were inadequate and
recognized that Briskman generally had too much individual responsibility.

                                      xii
However, Morales also said that despite repeatedly directing Briskman to
improve his procedures, he was unable to compel the Complex Asset Team
to remedy many of its practices – most particularly its inadequate asset
management recordkeeping. We believe that the lack of visible problems
combined with Morales’s hands off management style may have contributed
to the team’s continued inadequate recordkeeping.

      To ensure effective oversight of complex asset decision-making, we
recommend the USMS ensure that the Complex Asset Team develops a
standardized and accurate record of its asset management activities to
provide to Asset Forfeiture Division management. Further, the USMS should
evaluate the level of authority granted to the position of Complex Asset
Team Leader and develop a tiered-approval structure that includes
documenting Asset Forfeiture Division leadership approval for asset
management decisions related to high-value assets.

       Further, we found that a large part of the Complex Asset Team asset
portfolio – specifically those assets restrained or frozen instead of formally
seized – was not subject to internal or external reviews. Even though Asset
Forfeiture Division management was aware of this lack of review, it did not
address the Complex Asset Team’s known internal control and recordkeeping
deficiencies.7 Therefore, we recommend that the USMS establish an internal
review regimen tailored to assess the handling of restrained or frozen assets
administered by the Complex Asset Team.

      We also found that the limited staff and resources of the Complex
Asset Team were disproportionate to its responsibilities. We note that Asset
Forfeiture Division management recognized the need to bolster the legal,
accounting, and valuation knowledge available to Complex Asset Team
employees. Although Morales initiated a number of staffing and program
changes including hiring 14 forfeiture financial specialist contractors, only
one change – the hiring of additional Complex Asset Team employees in
2009 – specifically augmented Complex Asset Team competencies during
Briskman’s tenure. While the 14 forfeiture financial specialist contractors
had extensive experience relevant to forfeiture, their primary assignment
during Briskman’s tenure was to assist USMS district offices and not the
Complex Asset Team. Further, although many complex assets require legal
counsel, the burden of identifying legal issues fell upon the Complex Asset
Team without any proactive review by the USMS Office of General Counsel.



                                                            
              7
          Given the poor state of the records, the OIG was unable to quantify whether
restrained or frozen assets lost value.

                                                               xiii
Conclusion and Recommendations

      The Complex Asset Team must manage and subsequently dispose of
the most complicated types of assets the federal government seizes.
Between 2005 and 2010, the small staff of the Complex Asset Team
disposed of over $136 million in assets, yet it operated in an environment
lacking the procedures to guide its actions and decisions pertaining to seized
and forfeited assets. Difficulties with inter-agency pre-seizure planning and
limited-scope business plans may expose the government to unnecessary
risk when the USMS administers complex assets. Further, a lack of effective
asset tracking and reliable recordkeeping undermined the operations of the
Complex Asset Team because the Team could neither identify its historical
workload nor generate important performance-based information such as
the sale price and ultimate purchaser of assets.

      Additionally, internal control deficiencies further affected the Complex
Asset Team’s ability to value and dispose of multiple assets in a transparent
manner. Because the Complex Asset Team did not maintain reliable
records, the OIG was unable to verify the adequacy of many Complex Asset
Team asset administrative and disposition decisions. The inability of Asset
Forfeiture Division managers to address these issues further exacerbated
internal control deficiencies within the Complex Asset Team.

      Our audit work and findings resulted in 19 recommendations for the
USMS and 1 recommendation for JMD. Once implemented, these
recommendations will improve the accounting for and management of seized
and forfeited complex assets. As the entity responsible for safeguarding
assets through the forfeiture process, the USMS should ensure that the
Complex Asset Team develops a more robust internal-control environment
that will enable it to track the status of assets and improve procedures
governing asset valuation and disposition. Further, USMS Asset Forfeiture
Division managers must take a more active role in ensuring the
implementation of such improvements by more closely reviewing Complex
Asset Team operations.




                                      xiv
    AUDIT OF THE UNITED STATES MARSHALS SERVICE 

   COMPLEX ASSET TEAM MANAGEMENT AND OVERSIGHT 


                              TABLE OF CONTENTS


CHAPTER ONE – INTRODUCTION .......................................................1 


      Asset Seizures and Forfeitures ...................................................... 2 

      USMS Asset Forfeiture Division ..................................................... 4 

      OIG Audit Objective and Approach ................................................ 8 


CHAPTER TWO – PRE-SEIZURE PLANNING ......................................10 


      Pre-Seizure Asset Notification ..................................................... 11 

      Pre-Seizure Operating Business Plans .......................................... 12 

      Recommendations..................................................................... 14 


CHAPTER THREE – COMPLEX ASSET TEAM RECORDKEEPING ...........15 


      Defining and Identifying Complex Assets ...................................... 15 

      Tracking of Assets Referred to the Complex Asset Team ................. 16 

      Complex Asset Team Files .......................................................... 17 

      Tracking Assets Held In Bank Accounts ........................................ 23 

      Recommendations..................................................................... 24 


CHAPTER FOUR – ASSET VALUATIONS AND DISPOSITIONS ............26 


      Appraising Assets...................................................................... 26 

      Asset Dispositions ..................................................................... 27    

      Recommendations..................................................................... 30 


CHAPTER FIVE – COMPLEX ASSET TEAM OVERSIGHT.......................31 


      Oversight of Complex Asset Team Decisions ................................. 31 

      Forfeiture Financial Specialist Program ......................................... 36 

      Annual Financial Disclosure Forms ............................................... 38 

      Recommendations..................................................................... 39 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......41 


APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ..................42 

APPENDIX II: UNITED STATES MARSHALS SERVICE RESPONSE TO

    THE DRAFT REPORT .................................................................45 


APPENDIX III: JUSTICE MANAGEMENT DIVISION RESPONSE TO 

    THE DRAFT REPORT .................................................................55 


APPENDIX IV: LEONARD BRISKMAN RESPONSE TO THE DRAFT 

    REPORT ...................................................................................57 


APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

    SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT ...................................................................................65 

                                                                CHAPTER ONE 

                                                               INTRODUCTION 


       The Department of Justice (DOJ) may seize property associated with
violations of federal law and take title to that property through a process
known as asset forfeiture. Asset forfeiture is a means of punishing and
deterring criminal activity by depriving criminals of property used or
acquired through illegal activity. Seized and forfeited properties may include
businesses, cash, bank accounts, vehicles, vessels, airplanes, jewelry, art,
and real estate. As of March 2011, DOJ held seized assets with an estimated
value of $3.8 billion, with cash and other monetary instruments comprising
nearly 93 percent of this amount.

       The administration of the DOJ Asset Forfeiture Program primarily
involves three components. The Criminal Division’s Asset Forfeiture and
Money Laundering Section (AFMLS) establishes program policies and
directives with regard to the proper distribution and use of asset proceeds.
The Justice Management Division’s (JMD) Asset Forfeiture Management Staff
(AFMS) maintains the Consolidated Asset Tracking System (CATS), which
other DOJ components use to enter and track asset information. The AFMS
also administers the DOJ Assets Forfeiture Fund, which holds the proceeds
from asset sales.8

      The U.S. Marshals Service’s (USMS) 94 district offices are generally
responsible for safeguarding seized assets until they are forfeited. The Asset
Forfeiture Division at USMS headquarters helps district offices administer
assets. Within this division, the Complex Asset Team assists USMS efforts to
secure and appraise assets such as operating businesses and financial
instruments that require specialized management and accounting skills.

       In April 2010, the USMS referred to the DOJ Office of the Inspector
General (OIG) a notice of a potential conflict of interest that it received from
an official with the Office of the U.S. Attorney for the Southern District of
New York. The referral stated that Leonard Briskman, a lead career official
with the Complex Asset Team, owned a private asset valuation business.
Because Briskman’s official duties with the USMS involved the appraising
and selling of assets, his private business activity presented a potential
conflict of interest. Before notifying the OIG of this allegation, the USMS

                                                            
              8
          Deposits to the Assets Forfeiture Fund are used to pay for all necessary
investigative and administrative expenses associated with property seizures, management,
forfeitures, and disposals. Fund deposits may also be used to fund victim compensation
programs and provide equitable sharing revenue to state and local law enforcement
agencies.

                                                                     1

reassigned Briskman to other duties that did not involve asset
administration.

       The OIG subsequently opened an investigation into the conflict of
interest allegation. The investigation found that Briskman owned a private
firm that valued businesses and appraised individual assets in distressed
situations. Briskman reported an average of approximately $5,700 in annual
income for the 5-year period 2004-2009. The investigation determined that
Briskman did not direct asset valuation business to his private firm from his
position with the USMS or otherwise use his position with the USMS to
obtain business. He did not reference his official position in materials
available to the public about his private firm. In addition, he listed this
outside business activity on his annual financial disclosure forms that he was
required by the Office of Government Ethics to submit to the USMS. By
reviewing Briskman’s financial records and interviewing individuals who
worked with him in his private capacity, the investigation concluded that
there was no evidence that Briskman’s private business activities constituted
a financial conflict of interest with his official USMS duties. However, the
investigation determined that Briskman did not obtain authorization to
engage in the outside employment, and USMS personnel failed to follow up
on and address the information Briskman provided on his annual financial
disclosure forms.

Asset Seizures and Forfeitures

       When investigative agencies believe that an asset was derived from or
involved in the commission of crime, they may begin forfeiture actions by
seizing the property pursuant to lawful searches and arrests, or by referring
the matter to United States Attorneys’ Offices (USAO), which may then seek
court orders to seize or preliminarily restrain the asset.9 Seized assets
cannot be officially forfeited until they are named in a final order or decree
of forfeiture. As shown by Exhibit 1-1, there are three primary ways in
which the ownership of an asset may be transferred to the government via
forfeiture: (1) administrative, (2) civil, or (3) criminal forfeiture.



                                                            
              9
          Courts may issue preliminary restraining orders rather than seizure warrants in an
effort to preserve an asset’s value during litigation. Such orders typically prohibit owners
from dissipating or devaluing a particular asset and may require that the government
oversee and approve transactions involving the asset. Assets subject to preliminary
restraining orders are referred to as “FIRE” assets because they are frozen, indicted,
restrained, or encumbered.
 
                                                               2

                 EXHIBIT 1-1: OVERVIEW OF THE SEIZURE AND FORFEITURE PROCESS 





Source: OIG analysis of the asset forfeiture process



                                                       3

      Cash, contraband, and vehicles may be administratively forfeited
without court involvement when owners (usually criminal defendants) or
other third parties do not object to the forfeiture.10 However, when an
owner or third party contests a seizure a final determination on the asset is
made through a civil or criminal forfeiture proceeding.

       Assets may be forfeited through either civil or criminal proceedings if a
court determines the seized or restrained asset was linked to a crime.
Unlike a criminal forfeiture action, a civil forfeiture proceeds directly against
the asset and does not depend on a criminal conviction or even an
indictment of the owner. Upon conviction or a finding that the property is
subject to forfeiture, assets remain seized under a preliminary order of
forfeiture while defendants or other third parties appeal the impending
forfeiture. Once all appeals have been heard, the court can issue a final
order of forfeiture, at which point the asset is officially forfeited to the
government. Usually, the USMS may only sell an asset after it is officially
forfeited.11

USMS Asset Forfeiture Division

      Prior to its reorganization in early 2011, the USMS Asset Forfeiture
Division was comprised of four different teams, each charged with
administering specific types of assets.12




                                                            
              10
         Administrative forfeiture generally applies only to personal property valued at less
than $500,000. Real property cannot be forfeited administratively.
 
              11
         Courts may approve interlocutory sales prior to verdict to preserve the value of
assets. The money from the sale of such assets then becomes subject to forfeiture.
              12
                     The 2011 reorganization is discussed in more detail on page 8 of this report.

                                                               4
      EXHIBIT 1-2: USMS ASSET FORFEITURE DIVISION TEAMS 


      Personal Property Team. Maintained and disposed of
      personal property assets, such as automobiles, airplanes, and
      collectibles. In some cases, the Personal Property Team
      established national contracts to help with the safeguarding and
      sale of certain assets.
      Cash Team. Reviewed activity involving deposits of wired
      funds and checks from investigative agencies or vendors.
      Real Property Team. Managed contracts to maintain and sell
      real estate assets. This team obtained real estate brokerage
      services through a national contract, while property
      maintenance was performed through localized contracts
      overseen by USMS district personnel. The team also took over
      responsibility from the districts for price and sales decisions
      after a final order of forfeiture was issued.
      Complex Asset Team. Managed and sold assets that required
      specialized commercial knowledge and expertise for their
      maintenance, valuation, and sale. Examples of assets that fell
      under the purview of this team included operating businesses,
      financial instruments, commercial real estate properties, and
      any other asset that USMS district officials believed warranted
      particular attention due to specific challenges in its
      management or disposal.
      Source: USMS

Complex Asset Team

      From its inception in 1998 until 2003, the Complex Asset Team
consisted only of Leonard Briskman. In 2004, the USMS provided Briskman
a contractor to assist with asset administration responsibilities. Until August
2009, the number of staff varied between two and four individuals. As of
March 2011, the Complex Asset Team had three staff members: one full-
time employee and two contract employees. According to summaries
prepared by the Complex Asset Team, between January 2005 and August
2010, it disposed of 55 assets with an estimated value of over $136 million,
as shown in Exhibit 1-3.




                                       5                                   

    EXHIBIT 1-3: ASSETS DISPOSED BY THE COMPLEX ASSET TEAM

                 (JANUARY 2005 TO AUGUST 2010)


                                       Commercial
                                         Business      Miscellaneous
                         Cash
                                       $3,185,000        $501,371
                       $109,086
                                        (4 assets)      (4 assets)
                       (1 asset)




                                                 Real Property
                                                 $31,948,823
                                                  (7 assets)



                                Financial
                               Instrument
                              $100,915,793
                               (39 assets)




                                   Total = $136,660,073
    Source: USMS Complex Asset Team
 




                                          6                            

       The size and complexity of the Complex Asset Team’s asset portfolio
has grown with the greater sophistication of the crimes that yield forfeitable
assets. For example, the Complex Asset Team asset portfolio includes
seized items associated with multimillion-dollar financial crimes, including
those perpetrated by stock broker Bernard Madoff, investment lawyer Scott
Rothstein, and banker and political fundraiser Hassan Nemazee.13 Assets
forfeited in these cases include real property, conveyances, financial
instruments, and business interests purchased by the defendants with their
ill-gotten gains. The Complex Asset Team has also been responsible for
managing the sale of 25 affiliated waste disposal companies forfeited from
organized crime figure James Galante. At the time of their restraint, these
companies had an assumed value of approximately $60 million.14 

      Due to the complexity of a number of assets seized under these cases,
the associated risk of mismanaging complex assets can be substantial. For
instance, upon forfeiture of the Galante assets, the USMS became custodian
of a multi-million dollar waste disposal enterprise responsible for multiple
routes in the states of Connecticut and New York. Along with the Assistant
U.S. Attorneys (AUSA) responsible for the forfeiture, the Complex Asset
Team hired contractors to run the operating businesses and monitors to
oversee the financial integrity of and limit Galante’s influence over the
enterprise.

2011 Asset Forfeiture Division Reorganization

      In early 2011, after the initiation of our audit, the Asset Forfeiture
Division underwent a substantive reorganization that moved the Complex
Asset Team from the direct supervision of Assistant Director Morales to the
supervision of the Asset Forfeiture Division’s Operations Branch, as shown
by Exhibit 1-4.



                                                            
              13
           In March 2009, Bernard Madoff pled guilty to 11 counts in connection with a
scheme to defraud clients in his investment business, Bernard L. Madoff Investment
Securities. As part of the forfeiture order, multiple cars, boats, real property, and financial
instruments were seized from Madoff. Madoff is currently serving a 150 year sentence. In
January 2010, Scott Rothstein pled guilty to racketeering, mail fraud, and wire fraud
charges stemming from his operation of a $1.2 billion Ponzi scheme. He is currently serving
a 50-year sentence. In March 2010, Hassan Nemazee pled guilty to bank and wire fraud
charges for his involvement in defrauding various banks of over $292 million. Nemazee is
currently serving a 12-year sentence.
              14
          James Galante pled guilty to a charge of racketeering as well as tax and wire
fraud charges. Galante forfeited his ownership in the 25 waste disposal companies as well
as other real and personal property. He is currently serving an 87-month sentence.

                                                               7                          

               EXHIBIT 1-4: 2011 ASSET FORFEITURE DIVISION 





Source: USMS
Note: Following the reorganization, the Cash Team and Personal Property Team merged and
     responsibility for commercial real estate moved to the Residential and Commercial Team.

          According to USMS officials, this reorganization will provide the
   Complex Asset Team with additional opportunities to collaborate with other
   members of the Asset Forfeiture Division and therefore help it manage cases
   that include different types of assets. The Complex Asset Team will be
   headed by an assistant program manager who will supervise three full-time
   case coordinators. A dedicated forfeiture financial specialist and two
   contractor records examiners will also support the Complex Asset Team. As
   of March 2011, the Complex Asset Team only consisted of one case
   coordinator and the two contractor records examiners.

   OIG Audit Objective and Approach

          Considering that the OIG investigation identified concerns regarding
   Briskman’s official USMS duties, the objective of this audit was to assess
   how the USMS managed and oversaw seized and forfeited assets referred by
   its district offices to the Complex Asset Team. The audit analyzed asset files
   to assess the adequacy of Complex Asset Team internal controls, especially
   with regard to tracking, appraising, and selling assets. The report divides
   our review into five chapters that largely follow the Complex Asset Team’s
                                               8                                       

intake, administration, and disposition process. Chapter 2 discusses pre-
seizure planning; Chapter 3 reviews recordkeeping issues; Chapter 4 focuses
on the valuation and disposal of assets; and Chapter 5 sets forth issues with
management oversight.

       Mismanagement of these complex seized and forfeited assets can
diminish the value of the assets, result in excessive asset administration
costs, and expose the government to lengthy litigation with potential
claimants. Any improprieties associated with asset forfeitures also can
generate public distrust that can undermine public confidence in the
legitimacy of asset forfeiture as a tool to combat crime, fund equitable
sharing, and compensate victims of financial crime. Therefore, our audit
assessed the Asset Forfeiture Division oversight of decisions involving the
appraisal and sale of high-profile and valuable assets. We compared the
procedures maintained by the Complex Asset Team to controls employed by
other asset-handling groups within the USMS Asset Forfeiture Division. Our
audit included interviews with Briskman, Asset Forfeiture Division
executives, Complex Asset Team employees, and over 25 other officials
involved in the DOJ Asset Forfeiture Program.

       The methodology of our review of internal controls and management
oversight was also predicated on the findings of a prior OIG audit conducted
in 1998 on the Bicycle Club Casino in Bell Gardens, California. The USMS
took over 7 years to manage and dispose of the seized interest in the casino.
The OIG audit identified two primary conditions that caused this delay. First,
Asset Forfeiture Program participants did not communicate effectively
regarding how to manage the asset during seizure. Second, the DOJ
performed almost no planning before seizing the casino, which besides
delaying the sale of the asset, also led to exorbitant costs that eroded much
of its value.15 To address these issues, the audit recommended that DOJ
asset forfeiture participants follow Department policy on pre-seizure
planning and develop formal disposal plans for future problem assets. After
the audit, the USMS hired Leonard Briskman to begin assisting USMS local
districts and other Asset Forfeiture Program partners with the pre-seizure
planning and management of financial instruments and ongoing businesses.
Briskman later became the head of a unit that would become the Complex
Asset Team.




                                                            
              15
          Subsequent litigation by minor-interest holding partners in the casino resulted in
a multi-million dollar verdict against the DOJ.

                                                               9                        

                              CHAPTER TWO 

                          PRE-SEIZURE PLANNING


       To ensure successful complex asset management, investigative
agencies, USAOs, and the USMS must make appropriate decisions regarding
future asset management plans often before an asset is seized. The DOJ
Asset Forfeiture Program refers to these decisions as “pre-seizure planning”
and has established policies directing USMS Asset Forfeiture Division
personnel to participate in discussions with USAO and investigative agency
officials. Exhibit 2-1 details the kinds of questions and the level of analysis
that adequate pre-seizure planning by the USMS should involve.

            EXHIBIT 2-1: PRE-SEIZURE PLANNING ANALYSIS


What is being seized? To determine the scope of the seizure, who owns the
asset, and what seizing the asset will entail. For example, if a business is being
seized, does the asset include the building in which it operates, the property on
which it is located, the inventory of the business, bank accounts, accounts
receivable, and accounts payable? For businesses, the USMS should also consider
its ownership structure, potential legal claims, and whether the business involves
an area that may be inappropriate for government involvement (such as gambling
or pornography).

Should the asset be seized? To determine the likelihood the asset will decline in
value during seizure, and if so, what actions can be done to mitigate the decline in
value. Will the asset require more resources to manage and oversee than the asset
is worth?

How and when is the asset going to be seized? To determine if the seizure
needs to be conducted immediately or if a restraining order would be sufficient to
preserve the government’s interest.

What management and disposition problems are anticipated? To anticipate
and address logistical issues such as specialized maintenance, management, or
disposition procedures that the asset may require once it is seized.

Is publicity anticipated with regard to the seizure? To ensure that
appropriate DOJ personnel are advised of the seizure and the anticipated public
relations concerns.

Source: Asset Forfeiture Policy Manual, 2010




                                           10                                     

      The USMS consultation during pre-seizure planning is especially
important when the USAO or an investigative agency is considering seizing a
unique, complicated, or unpredictable asset that requires careful attention or
specialized knowledge to maintain its value. Such assets include operating
businesses and complicated financial instruments such as stocks, bonds, and
bank accounts.

      Unique, complicated, or unpredictable assets should be referred to the
Complex Asset Team when local USMS district personnel do not possess the
experience or skills necessary to manage them easily. Our discussions with
a number of Asset Forfeiture Program personnel indicate that while instances
of pre-seizure planning have increased in the past 5 years, in many cases,
pre-seizure planning still does not occur. Asset Forfeiture Division officials
told us that they often receive very little notice from other investigative
agencies or from USAOs that an asset requiring specialized skills or
administration is about to be seized. We believe that such “last minute”
notices make it very difficult for the USMS to provide adequate guidance
during the pre-seizure planning phase.

Pre-Seizure Asset Notification

       According to Asset Forfeiture Program and USAO pre-seizure planning
guidelines, the USMS should be notified once assets are targeted for
forfeiture. Further, according to USMS guidelines, the Complex Asset Team
should be notified whenever an asset that requires specialized commercial
knowledge is about to be seized. However, our review of USMS records
could not ascertain whether the Complex Asset Team: (1) was consistently
notified by USMS district offices, USAOs, or investigative agencies that an
asset was about to be seized, (2) responded to all pre-seizure planning
requests, or (3) provided complete and accurate advice pertaining to the
asset that was being considered for seizure. We found that the Complex
Asset Team did not have an independent process to track pre-seizure
planning requests and subsequent discussions. Moreover, its records did not
always detail what pre-seizure advice it provided to the requesting USAO or
investigative agency prior to a seizure. We therefore recommend that the
USMS develop standard procedures that require the Complex Asset Team to
track pre-seizure requests received from and assistance provided to USAOs
and investigative agencies.

      In some cases, investigative agencies or USAOs may encounter
circumstances requiring the immediate seizure of an asset or simply find
previously unknown assets at the time of a suspect’s arrest. In such
circumstances, the Complex Asset Team will not always have sufficient time
to perform comprehensive pre-seizure planning. However, when this occurs,

                                     11                                   

we believe it is important that the referring local USMS district office, USAO,
or investigating agency understand that the Complex Asset Team should still
perform abbreviated planning to ensure that an asset is received and
safeguarded properly by the USMS.16 We therefore recommend that the
USMS develop and provide standard operating procedures for abbreviated
post-seizure reviews of assets, as appropriate, when the Complex Asset
Team receives little or no notice prior to receiving assets from USAOs,
investigative agencies, or USMS district offices.

Pre-Seizure Operating Business Plans

      DOJ Asset Forfeiture Program policy states that whenever agencies
consider seizing an operating business, agencies should attempt to use the
“least intrusive means available” to obtain control of the asset. This means
that DOJ should assess whether the asset could be controlled by other
means – such as a protective or restraining order – instead of outright
seizure. Prior to the government taking control of an operating business,
the Complex Asset Team should collaborate with USAOs or investigative
agencies to develop a business plan for the asset that outlines how the
business should be handled and safeguarded through the forfeiture process.
USMS policies generally describe that these business plans should:
(1) assess the financial status of the asset, (2) determine whether the asset
should continue operating, (3) clarify the responsibilities of various agencies
involved in the seizure or restraint, and (4) assess whether the USMS needs
additional resources to manage and dispose of the asset properly.

      We interviewed current and former Complex Asset Team members to
ascertain how pre-seizure plans were performed on assets that are operating
businesses. USMS personnel who worked with Briskman said that he
believed formal operating business plans might result in limiting the
discretion required to make future asset management decisions. We found
that the USMS often had difficulty obtaining the necessary financial
information needed to assess an operating business that was being
considered for seizure. This is because prior to seizure, businesses are often
operated by a criminal defendant, conspirator, or third-party that is not
obligated to provide business records or financial statements to the USMS.

       Briskman told us that this made it very difficult to assess the financial
aspects of a business with certainty. Briskman explained that he therefore
relied on his nearly 50 years of experience in business administration as well
                                                            
              16
          The USMS recently began an initiative to place special criminal investigators in
USAOs to further encourage coordination between the USMS and prosecutors in pre-seizure
planning and aid investigations of additional forfeitable assets; however, it is too early to
determine the effect of this program on complex assets seized on short notice.

                                                               12                        

as on-site observations to review businesses. For example, Briskman said
that while on-site at a particular facility with agents investigating Galante
and his waste management corporation, Briskman assessed the economic
viability of the business by noting the number of garbage trucks traveling
back and forth. He said he believed his observations and experience
provided him enough evidence to show that at least in this case the asset,
the garbage facility, was “a very viable business.”

       We found the informal approach Briskman employed to assess the
viability of assets prior to restraint or seizure risked overlooking important
factors. Specifically with regard to the waste management facility noted
above, neither Briskman’s reliance on observations of on-site activity nor
subsequent administrative activity identified the effect legal restrictions and
tax liabilities would have on the sale of the business. Instead, we found that
the effect of these issues became apparent only when the USMS tried to
dispose of the business in 2010.17

       The Complex Asset Team under Briskman therefore did not employ a
consistent approach to preparing pre-seizure operating business plans. As
demonstrated by the example of the Galante waste management enterprise,
this informal approach risks overlooking factors that might result in the
government assuming responsibility for assets that will be difficult to
dispose. Although the lack of available information prior to seizure or
restraint can hinder the Complex Asset Team’s ability to conduct a thorough
analysis of an operating business prior to restraint or seizure, the Complex
Asset Team still needs to document its attempts to obtain the information
necessary to prepare a business operating plan. 

      Lacking a documented standard guide regarding how the Complex
Asset Team should conduct and document a business review, the USMS
cannot ensure that the Complex Asset Team makes well-informed decisions
and appropriately advises USAOs and investigative agencies on future
seizure decisions. We therefore recommend that the USMS ensure that the
Complex Asset Team documents how it prepares required pre-seizure
business plans. Further, we recommend that the USMS require that
responsible officials review Complex Asset Team business plans to ensure
that they are complete and based on sufficient evidence.

                                                            
              17
           Once the waste management corporation was forfeited in February 2009, the
USMS began selling discrete portions of the business. The USMS then determined that
because the government assumed responsibility for the business, and the business had
significant liabilities (such as state and federal taxes), the government could not sell certain
parts of the business without addressing how to handle the business’s liabilities. As a
result, portions of the corporation remained unsold at the time of the audit.  

                                                               13                           

Recommendations

We recommend that the USMS:

     1.	   Develop standard procedures that require the Complex Asset
           Team to track pre-seizure requests received from and assistance
           provided to USAOs and investigative agencies.

     2.	   Develop and provide standard operating procedures for
           abbreviated post-seizure reviews of assets, as appropriate, when
           the Complex Asset Team receives little or no notice prior to
           receiving assets from USAOs, investigative agencies, or USMS
           district offices.

     3.	   Ensure the Complex Asset Team documents required pre-seizure
           business plan reviews.

     4.	   Require that responsible USMS officials review Complex Asset
           Team business plans to ensure that they are complete and based
           on sufficient evidence.




                                    14                                 

                     CHAPTER THREE 

            COMPLEX ASSET TEAM RECORDKEEPING


      Under Asset Forfeiture Program policies, the USMS is responsible for
maintaining seized assets and disposing of forfeited assets. For most types
of assets, USMS policy establishes well-defined roles and responsibilities for
USMS district offices and headquarters teams. However, USMS policy
related to complex assets inconsistently defines what types of assets should
be considered “complex,” resulting in widely varying levels of control and
oversight between the Complex Asset Team and district offices. In effect,
the Complex Asset Team only handles assets that district offices find difficult
to administer and for which they request the Complex Asset Team’s
specialized knowledge and skills.

      As previously stated, the Complex Asset Team does not always receive
prior notice of an impending seizure and therefore cannot help develop a
pre-seizure plan with investigative agencies, USAOs, or district offices before
an asset becomes the USMS’s responsibility to manage and safeguard.
When this occurs, the Complex Asset Team still needs to be prepared to help
with or even assume full responsibility for maintaining an asset’s value. It is
therefore important that the Complex Asset Team tracks asset referrals,
maintains complete files that record asset administration and planning
decisions, and accounts for any seized financial instruments transferred to
and held in USMS-controlled bank accounts.

Defining and Identifying Complex Assets

      In March 2010, the USMS formally updated its guidelines to define a
“complex asset” as a(n) operating business, commercial real estate, or
financial instrument (including marketable and non-marketable securities,
interests in partnerships and insurance policies) that may have value.
According to a CATS asset query, between January 2005 and December
2009, the USMS disposed of about 10,000 assets with a combined value of
$3.52 billion that appeared to meet the March 2010 categorical definition of
a complex asset.

       However, based on USMS headquarters records, between 2005 and
2010, the Complex Asset Team handled and disposed of only 55 assets with
a value of approximately $136 million referred to it by district offices. The
Complex Asset Team’s portfolio of 55 assets actually constituted just a
fraction (less than 1 percent) of the approximately 10,000 seized or
restrained businesses and financial instruments, assets that USMS policy
now defines as complex.


                                      15                                   

       Because the Complex Asset Team has been involved in only a fraction
of assets that meet the categorical complex asset definition, there is a risk
that district offices are administering and disposing of businesses,
commercial real estate properties, and complicated financial instruments
without soliciting the input of the Complex Asset Team. Because the March
2010 USMS definition of complex asset categorically defines nearly 10,000
separate assets as complex, it appears that district offices are not
adequately identifying assets that require Complex Asset Team assistance.
We therefore recommend that the USMS clarify its policies to define more
specifically the attributes of complex assets and develop procedures for
determining when and how assets should be classified as complex assets.
Such policy updates should ensure that district offices know what types of
assets merit Complex Asset Team assistance. Once the policies are revised,
we furthermore recommend that the USMS: (1) coordinates with JMD to
update CATS so that the pertinent USMS personnel can use it to identify
whether an asset is a complex asset (and therefore managed by the
Complex Asset Team), (2) reconciles the assets referred to the Complex
Asset Team with assets that meet the updated definition in CATS, and
(3) follows up with the appropriate district office regarding the status of such
assets not yet in the Complex Asset Team portfolio.

Tracking of Assets Referred to the Complex Asset Team

       We attempted to identify which assets Briskman administered in order
to select a sample of assets and ascertain how they were managed. We
found that neither CATS nor the Complex Asset Team tracked asset referrals
or notifications between DOJ Asset Forfeiture Program partners and the
Complex Asset Team. Furthermore, we determined that CATS was not used
to identify whether a USMS district office or the Asset Forfeiture Division
managed an asset.18 Briskman stated that he often received incoming
notification and referrals via informal telephone calls and e-mails and did not
have a formal intake process.19




                                                            
              18
           Once an asset is seized or restrained, investigative agencies or USMS local district
offices enter asset information in CATS by category type, such as, aircraft, real property,
jewelry, commercial business, vehicles, or financial instruments. 
              19
          Briskman instead compiled a monthly report that summarized Complex Asset
Team activity. However, Briskman failed to track all asset referrals or other requests for
assistance from local USMS district offices in these reports.

                                                               16                          

       Because there was no log identifying all assets referred to the Complex
Asset Team, the USMS attempted to reconstruct a universe of assets that
the Complex Asset Team handled between January 2005 and August 2010.20
However, a senior Asset Forfeiture Division official conceded that compiling
this universe was difficult because the remaining team members lacked the
historical knowledge of Complex Asset Team activity and therefore had to
use whatever records were available. Nevertheless, the USMS identified at
least 110 assets handled by the Complex Asset Team from 2005 to 2010,
including 55 assets which were disposed of or sold during Briskman’s tenure,
generating more than $136 million.

       By failing to ensure that the Complex Asset Team tracks notifications,
assistance requests, or referrals it receives, USMS leadership lacks
assurance that the Complex Asset Team provided the dedicated and
specialized skills necessary to maintain the asset values. We therefore
recommend that the USMS develop procedures that require the Complex
Asset Team to track consistently incoming notifications, requests, and
referrals of assets – even if such advice concerns assets that are not
ultimately administered by the Complex Asset Team. In addition, because
CATS is the primary tracking system employed by the DOJ Asset Forfeiture
Program, we recommend that upon receipt from the USMS of procedures for
identifying assets as complex, JMD update CATS so that local USMS district
offices, and the USMS Asset Forfeiture Division can use it to identify whether
an asset is a complex asset that is being managed by the Complex Asset
Team.

Complex Asset Team Files

      After Eben Morales, the Assistant Director of the Asset Forfeiture
Division, received notice of the conflict of interest allegation regarding
Briskman, Morales assigned a group of Asset Forfeiture Division employees
and contractors to review Complex Asset Team files in an attempt to
organize the files so that they could be comprehensible to a third-party.
According to Morales, he did this because he believed that Briskman’s files
were inconsistent, incomplete, and inadequate with regard to how the
records detailed decisions made as to the handling, valuation, and
disposition of assets. As a result, the asset files made available for our
review were not kept in Briskman’s original form.




                                                            
              20
                     In late 2009, the Complex Asset Team started tracking asset activity.

                                                               17
       To obtain a universe of Complex Asset Team operations, we requested
a listing of all assets disposed by the Complex Asset Team between January
2005 and August 2010. The Complex Asset Team reviewed its files and
reconstructed a record of 55 assets that it believed were disposed of during
this time period. The Complex Asset Team provided such a listing; however,
a senior Asset Forfeiture Division official cautioned that those who compiled
the list did not have complete historical knowledge of asset activity during
the entirety of our scope and thus had to compile some of the data from
incomplete historical records.

      Even after Asset Forfeiture Division personnel organized the asset files
maintained by the Complex Asset Team, we found that the USMS was still
unable to determine from its files what actions the Complex Asset Team
performed for each asset. For instance, the files did not detail management
decisions made between the Complex Asset Team and the referring
investigative agency, USAO, or USMS district office. Moreover, asset records
prepared by remaining members of the Complex Asset Team did not
uniformly indicate the buyer names, results of asset valuations, dates of
sales, or final sale prices.

      In order to verify the universe of the 55 disposed assets on the
Complex Asset Team list mentioned previously, we attempted to locate
corresponding files for these assets among Briskman’s records that the
remaining members of the Complex Asset Team provided to us. We found
corresponding files for only 47 of the disposed assets on the Team listing.
Exhibit 3-1 lists the 8 assets that were reportedly administered in some way
between 2005 and 2010 by the Complex Asset Team, but for which we could
not identify files detailing Complex Asset Team involvement with the asset.




                                     18                                   

  EXHIBIT 3-1: LISTED ASSETS WITHOUT SUPPORTING COMPLEX 

                      ASSET TEAM FILES 


                                                                   Estimated
   Asset                                        Referring USMS
                  Associated Case Name                              Value of
 Description                                        District
                                                                   Assets ($)
Oil Wells       U.S. v. Gary Marcus Smith      Northern Alabama      1,500,000
Life Insurance  U.S. v. Steve Warshak          Southern Ohio                 42
Annuities
Boat Equipment U.S. v. Charles E. Hays Jr.     Western Wisconsin       282,475
Private Equity  U.S. v. Tone Grant             Southern New York       418,176
Brokerage       U.S. v Rod Stringer            Northern Texas          449,029
Account
Brokerage       U.S. v Rod Stringer            Northern Texas           16,311
Account
Brokerage       U.S. v Rod Stringer            Northern Texas            8,626
Account
Brokerage       U.S. v Rod Stringer            Northern Texas          972,158
Account
Total Estimated Value for Assets Without       Support             $3,646,817
Sources: CATS and Complex Asset Team records

      During our file review, we found that some files were labeled with
ambiguous asset names, such as “Property Easement,” “Nevada Matters,”
and “Horse.” Our review also identified an entire drawer of documents
labeled “Unclear.” We found 35 files that that we determined fell within our
scope (2005 to 2010) but were not included on the original list of assets
provided by the Complex Asset Team. These files are shown in Exhibit 3-2.




                                       19                                  

    EXHIBIT 3-2: UNLISTED ASSETS WITH COMPLEX ASSET TEAM FILES 


                                                                                       Estimated
    Asset Type          Associated Case or File Name        Seizing USMS District       Value of
                                                                                       Assets ($)
Financial Instrument   Neal Jones: Enterprise Bankcorp      Northern Virginia                1,981
Financial Instrument   Neal Jones: Enterprise Bankcorp      Maryland                         1,981
Cash                   Carmichael Convention Center         Middle Alabama                   5,000
Cash                   Carmichael Convention Center         Middle Alabama                   1,781
Real Property          Carmichael Convention Center         Middle Alabama                 107,300
Real Property          Carmichael Convention Center         Middle Alabama                  57,000
Money Judgment         Carmichael Convention Center         Middle Alabama               1,000,000
Cash                   Carmichael Convention Center         Middle Alabama                 454,921
Financial Instrument   Nevada Matters                       Nevada                               1
Financial Instrument   BHSR: Financial Access Solutions     Northern Texas                  60,000
                       Steve Warshak (Nationwide Life
Financial instrument                                        Northern Iowa                    508,072
                       Insurance)
Real Property          Santos Case                          Rhode Island                      340,000
Financial Instrument Jessica Wolcott (eGold)                Southern New York                       1
Cash                   Beck and Cole                        Southern Texas                    100,000
Cash                   Beck and Cole                        Southern Texas                     25,000
Cash                   Beck and Cole                        Southern Texas                    100,000
Financial Instrument Kenneth Mackay                         Western North Carolina             40,116
Financial Instrument Kenneth Mackay                         Western North Carolina             47,875
Financial Instrument Kenneth Mackay                         Western North Carolina             47,242
Financial Instrument Kenneth Mackay                         Western North Carolina                300
Financial Instrument Stay the Night                         Eastern Virginia                 Unknown
Unknown                Arabian Horse                        Eastern Virginia                 Unknown
Unknown                Dana Jarvis                          New Mexico                       Unknown
Unknown                Bank Fees – Guernsey                 Unknown                          Unknown
Unknown                Karen B. Whitt – A.G. Edwards        Southern California              Unknown
Unknown                Beardsley Case                       Middle Florida                   Unknown
Unknown                Benton, IL                           Southern Illinois                Unknown
Unknown                Campbell’s E-mail                    South Carolina                   Unknown
Unknown                Pendland - Nelson Case               Unknown                          Unknown
Unknown                Kathy M. Lynn                        Northern Texas                   Unknown
Unknown                826 Collins Rest                     Eastern Michigan                 Unknown
Unknown                Bro-Med                              Southern Georgia                 Unknown
Unknown                Firestone Auto – Ft. Lauderdale      Middle Florida                   Unknown
Unknown                Capital Auto Tint                    South Carolina                   Unknown
Unknown                Property Easement                    Eastern Michigan                 Unknown
Sources: CATS and Complex Asset Team Files
Note: 	Consulted sources did not identify the Asset Type and Seizing USMS District for the
       assets noted as “Unknown” above.




                                                20                                            

       To determine what asset each of the above 35 files pertained to, we
reviewed the files for CATS asset identification numbers, which we then used
to identify the asset when possible. We could not identify the associated
asset identification number in 14 of the 35 files and therefore were not able
to determine the particular asset the file pertained to (or even whether the
file pertained to a particular asset). We asked Asset Forfeiture Division
management and Complex Asset Team members to explain the disparity
between the assets described on the Team listing and the files located by the
OIG. During the audit, these USMS personnel were unable to provide
additional details to explain why these assets were not contained in the
post-Briskman Complex Asset Team portfolio listing. Accordingly, without
further explanation the OIG cannot determine what role the Complex Asset
Team had in administering the assets listed in Exhibit 3-2.

      Because the records maintained by the Complex Asset Team were
disorganized and incomplete, the Complex Asset Team was not able to
determine the extent of its involvement, and the OIG was unable to assess
the appropriateness of the Team’s asset management decisions.
Considering that the Complex Asset Team receives asset referrals and
consultation requests from each of the 94 USMS districts, several different
federal investigative agencies, and USAOs from across the United States,
detailed asset recordkeeping is important. A member of the Complex Asset
Team stated that these groups often need to stay informed of the status of
an asset as the case with which it is associated proceeds through the court.
However, this team member also told us that an Assistant U.S. Attorney
(AUSA) had recently reported that she had not received any update on a
high-profile asset from the Complex Asset Team in years.

       Without detailed asset records, we were unable to verify whether the
Complex Asset Team communicated the status of assets back to local
officials. Therefore, we recommend that the USMS implement policies that
standardize the asset files maintained by the Complex Asset Team. Once
developed, such procedures should: (1) provide asset file templates for
Complex Asset Team members; (2) ensure asset files contain up-to-date
information regarding asset valuation and disposal decisions; (3) facilitate
and memorialize discussions with federal investigative agencies, USAOs, and
USMS district offices; and (4) offer a regimen by which Asset Forfeiture
Division officials periodically sample files for completeness and accuracy.




                                     21                                   

       Contributing to the inadequacy of the process used to track assets is
the fact that there is an unclear delegation of responsibilities for record
maintenance between the USMS districts and the Complex Asset Team.
Throughout the audit, USMS Asset Forfeiture Division officials told us that
each local USMS district office – instead of the Complex Asset Team – is
responsible for administering assets seized under its respective geographic
jurisdiction. Asset Forfeiture Division officials told us that therefore, even
when the Complex Asset Team makes the primary business decisions for the
management and disposition of seized assets, the “official” asset files reside
at the local USMS district office and not at USMS headquarters.

       Nevertheless, the Complex Asset Team is charged with making the
primary asset management and disposition decisions for assets that are
referred to it by local USMS districts. At the very least, the Complex Asset
Team should have documented the advice and rationale for any
management decisions offered to USMS districts, USAOs, and investigative
agencies regarding the administration of assets. Moreover, because USMS
headquarters has the responsibility to oversee USMS activities in all
forfeiture actions against businesses and to coordinate significant decisions
regarding financial instruments with USMS district offices, the Complex Asset
Team should record the detailed planning and communication between
USMS headquarters and district offices regarding these types of assets.

       The Asset Forfeiture Division asserted that local USMS districts are
ultimately responsible for complex asset recordkeeping. However, in our
judgment, this does not excuse the Complex Asset Team from its important
responsibility to record its asset management and disposition decisions and
the rationale for these decisions. We believe the current arrangement can
create an environment in which neither the USMS district offices nor the
Complex Asset Team maintains complete and accurate records that
memorialize the reasons for important complex asset administration
decisions. Therefore, we recommend the USMS ensure that when the
Complex Asset Team handles the day-to-day management and works to sell
an asset, the Team should also maintain and update the official asset file
until final disposition.
 




                                     22                                   

Tracking Assets Held In Bank Accounts

       The Asset Forfeiture Division’s practice is often to transfer seized
financial instruments from their respective banks or brokerage houses to a
central storage banking location. According to an Asset Forfeiture Division
official, this is performed to simplify the tracking and accounting of these
types of assets. By having the same financial institution hold the seized
financial instruments in their original form with their original terms intact,
the Asset Forfeiture Division attempts to avoid allegations of
mismanagement of seized financial instruments.21

       The Asset Forfeiture Division provided us with a list of 26 financial
instruments managed by the Complex Asset Team, the corresponding bank
account numbers of these assets, and the relevant CATS identification
numbers for all financial instruments held in these accounts. However, the
Complex Asset Team was able to provide us the account information for only
19 of these financial instruments. The Complex Asset Team was unable to
provide us bank statements for the seven remaining accounts that were
contained on its original listing, and it did not recognize one of the accounts
listed on the original document it provided to us. As a result, we were
unable to trace and ascertain the appropriateness of each deposit and
withdrawal made to these accounts.

      Further, a USMS contractor tested financial instruments held in
external bank accounts and did not identify any unauthorized account
withdrawals. This testing nevertheless determined that changes in asset
account balances were not periodically updated in CATS, which the
contractor determined led to CATS underreporting the value of these
financial instruments by $3 million. Although the corrective adjustments
were made to CATS following this testing, we remain concerned that the
Complex Asset Team and broader Asset Forfeiture Program lack the
capability to track asset bank account activity effectively. Without
appropriate tracking of this information, the USMS cannot ensure that
appropriate decisions related to financial asset management were made.
Therefore, we recommend that the USMS develop a more robust tracking
system for assets held in bank accounts that confirms the account’s
existence and activity.

 
 

                                                            
              21
           When a financial instrument is forfeited, it is liquidated and deposited into the
Assets Forfeiture Fund. If the financial instrument is not forfeited, it is returned to the
owner in its original form.

                                                               23                              

Recommendations

We recommend that the USMS:

     5.	    Clarify its policies to define more specifically the attributes of
            complex assets and develop procedures for determining when
            and how assets should be classified as complex assets. Such
            policy updates should ensure that district offices know what
            types of assets merit Complex Asset Team assistance.

     6.	    Ensure that the Complex Asset Team (1) coordinates with JMD to
            update CATS so that the pertinent USMS personnel can use it to
            identify whether an asset is a complex asset (and therefore
            managed by the Complex Asset Team), (2) reconciles the assets
            referred to the Complex Asset Team with assets that meet the
            updated definition in CATS, and (3) follows up with the
            appropriate district office regarding the status of such assets not
            yet in the Complex Asset Team portfolio.

     7.	    Develop procedures that require the Complex Asset Team to
            track consistently incoming notifications, requests, and referrals
            of assets – even if such advice concerns assets that are not
            ultimately administered by the Complex Asset Team.
 
     8.	    Implement policies that help standardize the asset files
            maintained by the Complex Asset Team by (1) providing asset
            file templates for Complex Asset Team members; (2) ensuring
            asset files contain up-to-date information regarding asset
            valuation and disposal decisions; (3) facilitating and
            memorializing discussions with federal investigative agencies,
            USAOs, and USMS district offices; and (4) offering a regimen by
            which Asset Forfeiture Division officials periodically sample files
            for completeness and accuracy.

     9.	    Ensure that when the Complex Asset Team handles the day-to-
            day management and works to sell an asset, the Team maintains
            and updates the official asset file until final disposition.

     10.	   Develop a more robust tracking system for assets held in bank
            accounts that confirms the account’s existence and activity.




                                       24                                    

We recommend that JMD:

     11.	   Upon receipt from the USMS of procedures for identifying assets
            as complex, JMD update CATS so that local USMS district offices
            and the USMS Asset Forfeiture Division can use it to identify
            whether an asset is a complex asset that is being managed by
            the Complex Asset Team.




                                    25                                  

                      CHAPTER FOUR 

            ASSET VALUATIONS AND DISPOSITIONS


      An adequate internal control environment should preclude the same
person from appraising and selling the same asset. While the appraiser
strives to value an asset at a fair market price, the seller is charged with
quickly securing buyers for assets. The seller’s interest in quickly finding a
buyer can conflict with the appraiser’s interest in identifying a fair price.
Because the Complex Asset Team performs both asset appraisal and sale
functions, it should take care to ensure that the same Complex Asset Team
member not value and dispose of the same asset.

Appraising Assets

       Once an asset is seized, it is the responsibility of the investigative
agency to provide a preliminary assessment of its value in CATS. We were
told that preliminary valuations are estimates based on the investigative
agency’s knowledge at the time of seizure. Because the types of assets –
private stock holdings, commercial businesses, limited partnership
agreements – that most often require the assistance of the Complex Asset
Team are difficult to assess, the initial valuations offered by investigative
agencies can be inaccurate. A Complex Asset Team member told us that
such examples routinely occur when investigative agencies seize stock
certificates. In many of these instances, investigative agencies either record
the face value of the stock or denote a nominal value in CATS as the
preliminary value of the asset. Both of these preliminary valuation
techniques, however, do not provide an accurate indication of the fair
market value of the asset. Before such assets can be sold, it is critical that
some other party who specializes in appraising such assets subsequently
conducts and documents a professional and complete appraisal.

      Once the Complex Asset Team receives referrals or requests to handle
assets, it is generally responsible for ensuring that the initial value of an
asset is accurate. However, we determined that the Complex Asset Team
maintains only minimal guidelines regarding how it should properly ascertain
the value of an asset. Members of the Complex Asset Team were not
consistently able to describe the methods they should use to value different
types of assets. Further, Complex Asset Team members could not tell us if
or when a third-party valuation is required.




                                      26                                    

      According to internal USMS policy, a professional assessment of the
value of any business, including commercial properties, is required before an
asset can be sold. Briskman told us that because he was a certified
appraiser, he personally performed most business valuations for the
Complex Asset Team.22 Briskman explained that he avoided hiring external
appraisers because they could be expensive and he believed that the
corresponding cost reduced the funds that could be realized for the Assets
Forfeiture Fund. Assistant Director Morales stated that because Briskman
was a professional appraiser, Briskman believed it made little sense to hire a
contractor to value an asset that Briskman found to be valueless.

       To ascertain the value of assets, the Complex Asset Team stated that
it performed what it called “market research” – which included examining
price catalogs, commercial valuation formulas, and historical property
valuations. Nevertheless, neither the Complex Asset Team nor the USMS
maintained formal market research procedures for the appraisal of complex
assets, and the Complex Asset Team did not maintain comprehensible
records of the market research that it performed. Therefore, we recommend
that the USMS develop detailed procedures for Complex Asset Team
members to follow when appraising the value of specific types of assets
which should include a requirement that the Complex Asset Team maintain
consistent and comprehensible records of the information and techniques
used to value assets.

Asset Dispositions

       According to statutes that govern federal asset forfeiture activities, the
government has to offer for public sale or otherwise dispose of assets by
“commercially feasible means.” Generally, this means that the sale of
forfeited assets should be a public process whereby market forces can work
to determine the value of an asset. According to a USMS Asset Forfeiture
Division official, buyers for a seized asset should only be solicited after a
federal court issues a final order of forfeiture for the asset.

      The Complex Asset Team did not have adequate procedures in place to
guide the proper “commercially feasible” disposal of assets in its care. As a
result, Briskman sometimes spoke with and vetted potential buyers prior to
receiving final forfeiture orders for assets – even though without a final
order of forfeiture, the assets did not yet belong to the government and
therefore were not the government’s to sell. Briskman said he did this in
                                                            
              22
          Briskman said he could only recall one asset for which the Complex Asset Team
requested an independent valuation: over 1 million common shares of PetCare Rx stock
seized as a result of the Bernard Madoff investigation.
 

                                                               27                    

order to line up buyers for assets quickly and to help ensure that when
assets were finally forfeited they were ready to be sold. A member of the
Complex Asset Team also told us that Briskman sold assets in this way to
maximize returns because the worth of an asset, at least historically, tends
to depreciate while an asset is held in the government’s possession.23
Nevertheless, by speaking with and vetting potential buyers for an asset, we
believe Briskman risked appearing as though he was soliciting buyers before
receiving that asset’s final order of forfeiture.

       However, because Briskman also appraised the same assets for which
he solicited and selected the buyers, the USMS cannot be certain that
Briskman’s desire to expedite the sale of assets as the person responsible
for disposition did not affect his asset valuations. Therefore, we recommend
that the USMS ensure that different Complex Asset Team personnel are
responsible for valuing and disposing of the same asset.

       An AUSA with the Southern District of New York specifically cited two
instances in which she believed the Complex Asset Team was not following
rigorous disposition procedures.24 Both instances involved assets that were
seized as a part of the highly publicized Bernard Madoff criminal case. The
first asset was composed of over one million common shares of the online
pet prescription firm, PetCare Rx (PetCare). The second asset was a 5
percent investment in an array of foreign technology companies offered by
the investment vehicle Delta Fund. The Complex Asset Team originally did
not plan to publicly announce the sale of either of these assets. Briskman
stated that he did not believe that the Complex Asset Team could publicly
announce the sale of these assets because the nature of existing
partnerships tied to these assets limited the potential market of buyers.25
Briskman consequently proposed selling the assets to existing partners – a
company executive for the PetCare asset and an existing investor for the
Delta Fund share, respectively – prior to receiving a final order of forfeiture
for these assets.



                                                            
              23
           Depreciation can be caused by many factors both internal and external to the
seized asset, such as a pre-existing financial situation of a business, market influences, and
the fact that USMS involvement can reduce the potential market value of an asset.
               
              24
           Assistant Director Morales told us that up until this time he had only received
positive feedback from AUSAs regarding Briskman’s work with complex assets.

              25
           The USMS Office of General Counsel issued an opinion in May 2010 (after
Briskman’s transfer) stating that securities regulations permit the government to offer
shares in closely held companies and limited partnerships publicly in certain circumstances.

                                                               28                            

       Based on his negotiations, Briskman informed the AUSA handling the
relevant portions of the Madoff forfeiture case that he wished to sell the
PetCare and Delta Fund assets to these potential buyers. The AUSA
subsequently rejected both of Briskman’s proposals because she believed, at
least in part, that the methods used to solicit buyers and sell the assets were
not transparent and could limit the potential market for and the sale value of
the assets. Because the AUSA considered Briskman’s handling of the sale of
these assets to be inadequate, negotiations with the potential buyers were
cancelled.

      When the allegation was made regarding Briskman’s conflict of
interest, the U.S. Attorney’s Office pulled all Madoff assets from the Complex
Asset Team and hired an external contractor to restart the disposition
process for the PetCare and Delta Fund assets. Therefore, in this case, the
perceived inadequacy of the Complex Asset Team’s asset disposition process
did not actually affect the integrity of the sale of these assets because an
AUSA intervened to prevent what she believed to be a non-transparent sale
of the assets.

      As mentioned previously, to ensure that an asset is sold at a fair
value, those charged with appraising the value of a particular asset need to
be held at arm’s length from those soliciting potential buyers or selling the
asset. Basic internal control principles dictate limiting the risks of
undetected errors and or fraud by segregating among available employees
duties such as maintaining custody; approving, recording, and reporting
related asset transactions; and disposing of assets. Nevertheless, we found
that Briskman did not adhere to this principle. Even when other personnel
were assigned to work with him on the Complex Asset Team, Briskman both
valued and solicited buyers for the same assets.

      According to the AUSA who is working on the Madoff case, the
Complex Asset Team’s lack of transparent disposition procedures in part
undermined her confidence in the Complex Asset Team’s ability to manage
and dispose of complex assets effectively. Therefore, similar to our
recommendation regarding the appraisal of assets, we recommend that the
USMS develop policies that provide sufficiently detailed and relevant
guidance addressing what asset disposition techniques are appropriate for
specific types of complex assets including limited-partnership interests.
Such policies should provide instructions to the Complex Asset Team
regarding what types of assets merit public sales and what methods
constitute “commercially feasible” disposition.




                                      29                                   

Recommendations 

We recommend that the USMS:

     12.	   Develop detailed procedures for Complex Asset Team members
            to follow when: (1) appraising the value of assets, which should
            include a requirement that the Complex Asset Team maintain
            consistent and comprehensible records of the information and
            techniques used to value assets and (2) disposing or selling
            specific types of complex assets including limited partnership
            interests.

     13.	   Ensure that different Complex Asset Team personnel are
            responsible for valuing and disposing of the same asset.

 




                                     30                                  

                        CHAPTER FIVE

                COMPLEX ASSET TEAM OVERSIGHT


      Asset Forfeiture Division Assistant Director Eben Morales told us that
for years he had been aware of weaknesses in the Complex Asset Team’s
internal controls and recordkeeping procedures. Morales also acknowledged
that Briskman had too much responsibility and was often too deeply involved
in the asset and case details when he should have delegated certain
responsibilities to other members of his team.

      According to Morales, the Asset Forfeiture Division lacked the expertise
and resources necessary to oversee Complex Asset Team decisions and
operations. Morales said that upon assuming his role as leader of the
program in 2007, he began implementing new initiatives to address Division-
wide needs. Considering the Complex Asset Team’s lack of recordkeeping
and internal controls, this chapter reviews the management approach
employed by USMS Asset Forfeiture Division leaders over the Complex Asset
Team.

Oversight of Complex Asset Team Decisions

       Each USMS employee is guided by a performance work plan that
specifically lists the employee’s respective functions, duties, and rating
metrics. Whereas the other team leaders reported to the Operations
Director, Morales told us that he was Leonard Briskman’s direct supervisor
because the nature of and difficulty in managing complex assets created
increased risk for the Asset Forfeiture Division. As the lead of the Complex
Asset Team, however, Briskman’s performance work plan provided him the
“final authority” over negotiating and implementing restraining orders
involving assets referred to the Complex Asset Team. Briskman’s duties also
included providing financial and business advice to investigative agencies
and negotiating on behalf of the DOJ with corporate defense attorneys over
how to dispose of assets referred to the Complex Asset Team. Briskman,
therefore, had wide discretion over asset decisions worth millions of dollars.

      According to Morales, the broad scope of Briskman’s responsibility as
the Complex Asset Team Leader was justified considering the breadth of the
work he had to accomplish. Morales stated that this is because careful asset
administration has to take into account many different variables that are
often unknown at the time of seizure, including the: (1) financial standing of
the seized asset or business, (2) complexity of business operations, and
(3) asset ownership structure. As a result, Briskman exercised significant
discretion in making decisions over how to manage, value, and sell an asset
referred to the Complex Asset Team.
                                     31                                   

      We believe that the Complex Asset Team’s high level of authority with
regard to asset administration obligates an official in Morales’s position to
review and clearly concur with decisions related to high-value assets.
Further, the leadership of the USMS Asset Forfeiture Division should be
aware of the assets referred to the Complex Asset Team and should
proactively identify potential problem areas that, if not appropriately
addressed, could diminish an asset’s value. Second, Asset Forfeiture
Division management must implement explicit delegations of authority.
Third, management must require that a review process exists to ensure the
Complex Asset Team applies appropriate procedures throughout the Team’s
involvement with assets, including pre-seizure monitoring activities.

Inaccurate and Incomplete Monthly Status Reports

      We determined that Briskman’s primary method of documenting case
progress consisted of monthly reports sent to Morales and AFMLS
representatives. These monthly reports contained brief, one or two
paragraph narratives of the status of cases with complex assets and
summarized activities the team performed on those assets that month. We
reviewed the monthly status reports from FYs 2009 and 2010 and
determined that these reports did not consistently provide complete
information about the assets. For instance, the written updates on the
status of over $50 million in complex assets forfeited in the Bernard Madoff
case conveyed different asset values from month to month but did not
always provide explanations for these changes in asset values.

        Further, we identified inaccuracies in some monthly reports Briskman
compiled. The summaries Briskman provided for many assets stated, “No
change from previous report.” Yet, when we compared these entries to
previous entries for such assets, we noted that some of the entries
contained unexplained changes from the previous monthly status report.
For example, the listed taxable profit amount for one asset varied from
$9.5 million to $12 million between different reports; however, the entries
provided to summarize the changes for this particular asset in subsequent
reports were “no change from previous report.” Further, we noted that the
list of all active assets often reused the same text from the previous month,
which had the effect of obscuring actual changes in status.

       Because the monthly reports were often incomplete and inaccurate, we
believe that the reports did not provide sufficient context for Morales to
understand the rationale for and concur with Briskman’s asset decisions. We
therefore recommend that the USMS ensure the Complex Asset Team
develops a standardized and accurate record of its asset management
activities to provide to Asset Forfeiture Division management. Further, once

                                     32                                   

CATS is updated to capture asset referrals made to the Complex Asset
Team, we also recommend that the USMS ensure that the Asset Forfeiture
Division leadership: (1) periodically use CATS to identify assets referred to
the Complex Asset Team and (2) reconcile the CATS list against submitted
Complex Asset Team activity reports.

No Delegation of Authority Structure for Decisions Involving High-Value
Assets

       Morales stated that he considered the day-to-day operations of each
team to be the responsibility of the team’s leader. Although delegation
makes sense for routine assets of limited value, we believe the high-value
and complicated assets handled by the Complex Asset Team have greater
risks of devaluation and associated negative publicity. These increased risks
demand more involvement by executive leadership in asset administration,
such as approving significant asset management and disposition decisions.
Not only should decisions regarding these assets be documented adequately,
but also these decisions need to be adequately reviewed and approved when
they potentially affect the valuation and safeguarding of high-dollar assets.

       Nevertheless, we did not find evidence that Asset Forfeiture Division
executives established asset value thresholds requiring that Briskman obtain
supervisory approval for even the highest-valued assets. Notwithstanding
Briskman’s wide-ranging duties, we expected to find at least a tiered-
approval structure based on the relative value of assets, which would
delegate authority to team members to make decisions involving lower value
assets but require enhanced senior supervisory review and concurrence for
the valuation or sale decisions for high-dollar assets. In our opinion, the
approval structure prevailing during the scope of our audit reflects a lack of
sufficiently active management supervision over Briskman’s activities that
yielded to him an excessive degree of authority over the disposition of
complex assets. We believe that the lack of visible problems combined with
Morales’s hands off management style may have contributed to the team’s
continued inadequate recordkeeping.

       Therefore, we recommend that the USMS evaluate the level of
authority granted to the position of Complex Asset Team Leader and develop
a tiered-approval structure that includes documenting Asset Forfeiture
Division leadership approval for asset management decisions related to high-
value assets.




                                      33                                   

No External Review of FIRE Assets

      Periodic assessments should be integrated as part of management’s
continuous monitoring of internal control. However, the Complex Asset
Team largely escaped both internal and external review. Assistant Director
Morales told us he had never received any findings during internal USMS or
external audits regarding the performance of the Complex Asset Team that
would indicate there were serious problems. Yet, we were told by the USMS
Office of Compliance Review, which is responsible for overall USMS internal
control testing, that it only reviewed district offices and did not review the
headquarters units due to a lack of resources.26

       Additionally, many Complex Asset Team files are not subject to
external review because many assets managed by the Complex Asset Team
are held for several years in a pre-seizure, Frozen, Indicted, Restrained, or
Encumbered (FIRE) status. FIRE assets are not officially seized, but are
subject to court orders that can significantly limit an owner’s authority over
the asset. For instance, the government’s monitoring during FIRE status
may extend to rejecting financing, investment, or hiring decisions that could
affect asset value. Because FIRE assets are not technically under
government control, such assets are excluded from the scope of the Assets
Forfeiture Fund and the Seized Asset Deposit Fund’s Annual Financial
Statement audit.

      However, we have found multiple instances in which the Complex
Asset Team made significant asset management decisions for FIRE assets.
For example, as part of a racketeering case against James Galante, the
U.S. Attorney’s Office in Connecticut obtained a restraining order over
Galante’s waste disposal companies. These assets were in FIRE status for
over 2 years, until the companies were forfeited in February 2009. During
those 2 years, the Complex Asset Team conducted continuous on-site
reviews of these corporations’ business transactions through a court-
appointed interim chief executive or contractors with the power to approve
payments, invoices, and hiring decisions.

      Because of the shortcomings in the Complex Asset Team’s internal
control environment, Morales repeatedly directed Briskman to improve his
procedures but was unable to compel the Complex Asset Team to remedy
many of its practices – most particularly its inadequate asset management
recordkeeping. Based on our discussions with Morales, and our review of
management priorities outlined in the Asset Forfeiture Division’s strategic

                                                            
              26
           We note that such reviews, however, were scheduled to occur in FY 2011, after
this audit began.

                                                               34                     

plan, we found that much of the internal control implementation efforts were
directed towards limiting and addressing audit findings pertaining to the
Assets Forfeiture Fund and the Seized Asset Deposit Fund’s Annual Financial
Statement audit. However, Morales confirmed that he was aware that FIRE
assets managed by the Complex Asset Team were not subject to the
financial statement audit. We believe that because the USMS did not
regularly conduct internal reviews of all assets and because FIRE assets
(which comprised a large part of the Complex Asset Team case portfolio)
were not subject to external review, Morales did not prioritize addressing the
Complex Asset Team’s known internal control challenges until he received
word of Briskman’s conflict of interest allegation.

       The delay in remedying Complex Asset Team internal control
deficiencies risked adversely affecting the quality of decisions the Asset
Forfeiture Division made regarding the management of assets, including
those in FIRE status. Therefore, we recommend that the USMS establish an
internal review regimen tailored to assess the handling of all assets,
including FIRE assets, administered by the Complex Asset Team.

Legal Review Required in Complex Asset Administration

       Handling large, complex assets requires highly skilled professionals
experienced in legal decision-making to navigate complex ownership issues
and properly account for seized assets. According to an AFMLS official, a
private sector company administrating assets similar to those of the
Complex Asset Team would have a large number of attorneys on staff. This
official also told us that the Complex Asset Team had limited access to such
resources.

      We found that the Complex Asset Team lacked adequate processes to
obtain proactive legal counsel regarding asset management issues. Instead,
it would only contact the USMS’s Office of General Counsel when a particular
legal problem would arise during asset administration or disposal. Because
the burden was on the Complex Asset Team to recognize potential legal
problems, and the Team itself did not have the legal knowledge to
proactively identify these problems, the Complex Asset Team did not solicit
legal advice when necessary. Thus, when the Complex Asset Team did not
recognize that potential legal problems existed with an asset, the USMS
risked that those issues would remain unaddressed and negatively affect the
government’s interest in the seized asset.

      To address the legal risk inherent in managing and selling complex
assets adequately, we recommend that the USMS ensure that the Complex


                                     35                                   

Asset Team regularly consults with the USMS Office of General Counsel
regarding the assets in its portfolio.

Forfeiture Financial Specialist Program

       Assistant Director Morales stated that staffing on the Complex Asset
Team has not been in proportion to the number and intricacy of complex
assets handled by the USMS. Briskman told us that he was the only USMS
headquarters employee dedicated to work on complex asset issues with
district offices between 1998 – when he started working with the USMS –
and 2009. Beginning in 2004, the USMS provided between one and four
additional personnel, including full-time employees and contractors, to work
with Briskman on the Complex Asset Team.

       Morales requested a 2008 Asset Forfeiture Division-wide workforce
analysis, which was performed by ICF International and highlighted the
increasing workload of the Complex Asset Team. Specifically, the analysis
identified that the Complex Asset Team, along with the rest of the Asset
Forfeiture Division, had capacity and proficiency limitations with regard to
financial, business, and accounting skills and experience. The analysis
concluded that workloads outstripped the existing capabilities and resources
of the Asset Forfeiture Division and negatively affected its ability to support
the increasing numbers of complex and problematic cases.

      Beginning in 2009 and early 2010, the Asset Forfeiture Division hired
14 contractors to serve as forfeiture financial specialists. These specialists
were deployed to USMS district offices in an effort to improve internal
controls, review contracts, and provide financial guidance and expertise.
According to Morales, the Asset Forfeiture Division also developed the
Forfeiture Financial Specialist Program to address many of the
aforementioned staffing, internal control, and specialized business
knowledge deficiencies throughout the Asset Forfeiture Division, including
the shortcomings pertaining to the Complex Asset Team.

       However, we found that although the forfeiture financial specialist
position description noted that these contractors would, in part, provide pre-
seizure assistance on complex assets, these specialists generally had no
formal responsibilities with regard to the Complex Asset Team at USMS
headquarters.27 Before the conflict of interest allegation, contractors hired
as forfeiture financial specialists reported that they spent most of their time
addressing financial statement audit compliance issues at district offices.
                                                            
              27
         In one instance, a forfeiture financial specialist was temporarily transferred to
work under Briskman after the forfeiture financial specialist identified problems with
complex asset administration while working in the Southern District of New York.

                                                               36                            

We found that the Forfeiture Financial Specialist Program, as implemented
before Briskman was reassigned, was primarily designed to ensure financial
compliance in the district offices rather than to improve the capabilities of
the Complex Asset Team.

      Following the conflict of interest allegation, Morales temporarily
reassigned three forfeiture financial specialists from district offices to USMS
headquarters to review the internal controls of the Complex Asset Team.28
As part of their review, which began in April 2010, the forfeiture financial
specialists analyzed the Complex Asset Team’s business processes and
examined the assets managed by the Team. Additionally, the forfeiture
financial specialists developed a complex asset summary by reviewing files
and interviewing Briskman and current Complex Asset Team members.
Given the disorganized nature of Briskman’s records, the contractors were
unable to determine what asset decisions the Team made during Briskman’s
tenure.

       Upon completion of this review, the forfeiture financial specialists met
with Asset Forfeiture Division officials to discuss specific internal control
deficiencies with regard to the Complex Asset Team, including weak or
lacking: (1) separation of duties, (2) delegation of authority, (3) file
documentation, and (4) documentation of standard operating procedures.
In March 2011, the Asset Forfeiture Division updated its policies to help
improve these internal controls.

       The strategy of detailing forfeiture financial specialist contractors to
district offices did not address known internal control and professional
knowledge deficiencies within the Complex Asset Team itself. We do not
necessarily believe that these new positions would have improved how
Complex Asset Team and Asset Forfeiture Division managers worked
together to document and oversee decisions. Although Morales stated that
he sought a number of Division-wide changes in staffing and hiring, we
found that only the hiring of additional Complex Asset Team employees in
2009 specifically augmented Complex Asset Team competencies during
Briskman’s tenure. Recognizing this concern, in March 2011, the Asset
Forfeiture Division reported that it would begin assigning at least one of the
forfeiture financial specialist contractors to the Complex Asset Team.
Because we are uncertain whether this action will address the Complex Asset
Team’s long-term staffing needs, we recommend that the USMS evaluate
whether forfeiture financial specialist contractors should be provided a more
definitive role with the Complex Asset Team.

                                                            
              28
          These specialists still maintained their district responsibilities, but would travel
several days a month to review Complex Asset Team internal controls at headquarters.

                                                               37                            

Annual Financial Disclosure Forms

       Pursuant to financial disclosure regulations from the Office of
Government Ethics (OGE), USMS employees with certain responsibilities are
required to file annual financial disclosure forms on which they should report
all outside positions and financial interests.29 According to the USMS policy,
employees must also seek formal (written) management approval for
outside employment. When necessary, an opinion on outside employment
should also be sought from a USMS ethics officer to determine if the
employment creates either a financial conflict of interest or an appearance of
a financial conflict of interest.

      Briskman disclosed his outside interest as a member of a business
valuation firm on the annual financial disclosure forms he submitted each
year between 2005 and 2009. However, Briskman did not obtain a separate
formal approval from his supervisor, Assistant Director Eben Morales.
Although Briskman said he believed his financial disclosure report fulfilled all
USMS requirements, the USMS Ethics Officer told us that such a disclosure is
not tantamount to requesting approval from a manager for outside
employment and that separate approval is required.

      In addition, the USMS Ethics Officer stated that government policy
requires managers to review financial disclosure forms to identify if
employees had actual or potential conflicts of financial interest. Assistant
Director Morales said that when he reviewed Briskman’s financial disclosure
reports, he believed he was only required to sign the report to confirm that
Briskman completed the report. The USMS Ethics Officer stated that
Morales’s understanding of the purpose of his signature was incorrect and
that a supervisor should substantively review financial disclosures to identify
potential conflicts of interest. However, the Ethics Officer also conceded that
he has not provided USMS managers sufficient guidance and training over
the last 5 years to detail the purpose and extent of managers’
responsibilities to review subordinate financial disclosure reports.




                                                            
              29
           Under the OGE regulations, employees whose responsibilities require them to
participate personally and substantially through decision or exercise of significant
governmental action or activity that may have a direct or substantial economic effect on the
interests of any non-federal entity is required to disclose financial interests.

                                                               38                       

      Upon review of the USMS policy, we determined that Briskman
erroneously relied on the completion of his financial disclosure reports and
the fact that USMS management did not question his reports as tacit
approval of his outside position. Briskman did not follow the appropriate
mechanism through which an employee should seek approval for outside
employment and also did not seek a formal ethics opinion from the USMS
Ethics Officer as someone in his position should have done. Additionally, we
found that his manager did not conduct a thorough review of Briskman’s
financial disclosure reports nor did he require Briskman to submit a separate
approval request for the outside business listed on the disclosure report.

       Further, although the USMS Ethics Office is responsible for review of
all completed financial disclosure reports, we found that the Ethics Officer
did not identify a potential conflict of interest issue with Briskman’s
disclosure form until 2009, 4 years after Briskman first disclosed his
business.30 We also found that the USMS Ethics Office contributed to
creating an inadequate review process by not providing sufficient training to
USMS managers on their role in the financial disclosure process. Therefore,
we recommend that the USMS ensure that managers know that they must
thoroughly review financial disclosure forms and disclose any potential
conflicts of interest to the USMS ethics office.

Recommendations

We recommend that the USMS:

              14.	           Ensure the Complex Asset Team develops a standardized and
                             accurate record of its asset management activities to provide to
                             Asset Forfeiture Division management.
               
              15.	           Ensure that the Asset Forfeiture Division leadership:
                             (1) periodically use CATS (once it is updated to capture asset
                             referrals made to the Complex Asset Team) to identify assets
                             referred to the Complex Asset Team and (2) reconcile the CATS
                             list against submitted Complex Asset Team activity reports.

 



                                                            
              30
           The USMS Ethics Officer told us that given the information provided by an OIG
investigator, he did not believe that Briskman’s outside business interest presented an
actual financial conflict of interest, but consultations with Briskman’s superior would have
been necessary to determine if such a business presented the appearance of a conflict of
interest. See 5 C.F.R. 2635.502 (2010)

                                                               39                          

16.	   Evaluate the level of authority granted to the position of
       Complex Asset Team Leader and develop a tiered-approval
       structure that includes documenting Asset Forfeiture Division
       leadership approval for asset management decisions related to
       high-value assets.

17.	   Establish an internal review regimen tailored to assess the
       handling of all assets, including FIRE assets, administered by the
       Complex Asset Team.

18.	   Ensure the Complex Asset Team develops a consistent
       consultation process with the USMS Office of General Counsel.

19.	   Evaluate whether forfeiture financial specialist contractors should
       be provided a more definitive role with the Complex Asset Team.

20.	   Ensure that managers know that they must thoroughly review
       financial disclosure forms and disclose any potential conflicts of
       interest to the USMS ethics office.




                                 40                                    

                   STATEMENT OF COMPLIANCE 

                  WITH LAWS AND REGULATIONS 

 
      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
United States Marshals Service Asset Forfeiture Division’s management
complied with federal laws and regulations, for which noncompliance, in our
judgment, could have a material effect on the results of our audit. United
States Marshals Service Asset Forfeiture Division’s management is
responsible for ensuring compliance with federal laws and regulations, and
applicable Department of Justice requirements relevant to asset forfeiture.
In planning our audit, we identified the following laws and regulations that
concerned the operations of the United States Marshals Service Asset
Forfeiture Division and that were significant within the context of the audit
objectives:

         21 U.S.C. § 853 (2010) 

         21 U.S.C. § 881 (2010) 

         5 C.F.R. § 2635.402 (2010)

         5 C.F.R. § 2635.502 (2010)


      Our audit included examining, on a test basis, United States Marshals
Service Asset Forfeiture Division’s compliance with the aforementioned laws
and regulations that could have a material effect on its operations, through
interviewing its personnel, analyzing historical records, assessing internal
control procedures, and examining asset management and disposition
procedural practices. As noted in the Recommendation sections in this
report, we found that the United States Marshals Service Asset Forfeiture
Division did not fully comply with requirements set forth in the Department
of Justice Asset Forfeiture Policy Manual.




 




                                     41                                   

                                                              APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY
 
Objective

      The objective of this audit was to assess how the USMS managed and
oversaw seized and forfeited assets referred by its district offices to the
Complex Asset Team. To accomplish this objective, we examined the
internal control environment that governs how the USMS secures, values,
operates, and disposes of these assets.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      Our audit generally encompassed complex asset management and
disposal activities from 2005 to the time of former Complex Asset Team
Leader Leonard Briskman’s administrative transfer in 2010. To accomplish
our audit objective, we discussed with Briskman his activities as former
leader of the Complex Asset Team. We interviewed USMS Asset Forfeiture
Division management (specifically the Assistant Director), other Complex
Asset Team staff, and contractors assisting with asset forfeiture duties,
including the Forfeiture Financial Specialists. Our review also included
discussions with individuals from other Asset Forfeiture Program partner
components, including the Asset Forfeiture and Money Laundering Section
and the Asset Forfeiture Management Staff. All interviews occurred in
Washington, D.C. and Arlington, Virginia – the site of Asset Forfeiture
Division headquarters – with the exception of discussions with individuals
from the U.S. Attorney’s and USMS district offices in the Southern District of
New York.

      During our audit of the USMS’s management of seized and forfeited
complex assets, we identified relevant internal policies, assessed historical
Complex Asset Team practices, and reviewed files pertaining to complex
assets. Throughout the audit, we relied on computer-generated data to
obtain necessary information about assets administered by the Complex
Asset Team. Such data include CATS reports which detail the approximate

                                      42                                   

value of assets, USMS records that listed assets and operating procedures,
and records from other DOJ asset forfeiture components. CATS is an
information technology system separately administered by JMD that the DOJ
uses as its primary asset tracking system. Although we did not assess the
reliability of such computer-derived information during this audit, we do not
believe that our reliance on this data to meet the objectives of our audit
affects our findings and recommendations that concern the operation and
oversight of the Complex Asset Team.

      To obtain an overview of Complex Asset Team operations, we
requested a listing of all assets disposed by the Complex Asset Team
between January 2005 and August 2010. This asset listing was prepared by
USMS personnel after Briskman was reassigned in April 2010. The Complex
Asset Team provided such a listing; however, a senior Asset Forfeiture
Division official cautioned that those who compiled the list did not have
complete historical knowledge of asset activity during the entirety of our
scope and thus had to compile some of the data from incomplete historical
records. We noted that this listing was missing some data such as the
appraiser and ultimate purchaser of the assets, as well as the sale price of
some of the assets.

      To assess the accuracy and completeness of the Complex Asset
Team’s recordkeeping we sought to determine whether assets were missing
from the USMS-prepared complex asset listing. Because Briskman’s records
largely consisted of loose, disorganized documents and papers, we were told
that the listing was based on the historical memory of current members of
the Complex Asset Team and the results of their review of Briskman’s files.
As such, we were not confident that the list of assets was complete. We
therefore independently reviewed files made available to us by the USMS at
the Complex Asset Team headquarters.31 This review identified a number of
assets that potentially should have been included in the asset listing and
provided us the evidence necessary to find that the USMS needed to
improve its recordkeeping efforts. To obtain information about these assets,
we searched CATS by asset identification number (if available). We then
created our own listing of disposed assets based upon information from the
Complex Asset Team listing and supplemented with data from the CATS
                                                            
              31
          Our review applied the contemporaneous definition of a complex asset as any
asset administered by the Complex Asset Team. The review therefore sought to locate a
corresponding file for every disposed asset on the Complex Asset Team listing, basing our
matches on identical CATS identification numbers or case name details. We then examined
the remaining files to see if they indicated Complex Asset Team involvement during the
scope of our audit and, if so, if the files contained specific CATS identification numbers.




                                                               43                      

status inquiry reports. We then summed the sales price values from the
resulting list to determine a total value of assets disposed by the Complex
Asset Team.

       Our review of the Complex Asset Team management and oversight
focused primarily on specific assets that interview subjects and other DOJ
officials brought to our attention during our review.




                                     44                                      

                                                                             APPENDIX II

                   UNITED STATES MARSHALS SERVICE
                    RESPONSE TO THE DRAFT REPORT
 

                                                       U.S. Department of Justice

                                                       United States Marshals Service

                                                       Associate Director for Administration


                                                       Alexandria, Virginia 22301-1025

                                                       August 24, 2011



MEMORANDUM TO:                Raymond J. Beaudet
                              Assistant Inspector General for Audit

                FROM:         Steven M. Mertens
                              Associate Director for Administration

             SUBJECT:         Response to Draft Audit Report:
                              United States Marshals Service Complex
                              Asset Team Management and Oversight

     This is in response to correspondence from the Office of the Inspector General requesting
comment on the open recommendations associated with the subject audit report.

        Thank you for the opportunity to comment on the draft audit report. We have reviewed
the 20 recommendations contained in the draft report and have set forth our requests for certain
clarifications and responses to Recommendations 1-10 and 12-20. Recommendation 11 is
directed at the Department’s Justice Management Division (JMD).

         The United States Marshals Service (USMS) is proud to report that of the 20
recommendations contained in the draft report, the majority have already been addressed. Many
corrective actions were underway prior to the draft report’s issuance, some even prior to the
initiation of OIG’s audit. As documented in the attached response, 17 of the 20
recommendations have been, or are in, the process of being implemented.

        It is important to note that the strategic efforts of the USMS Asset Forfeiture Division
have led to the successful implementation of many of these recommendations. AFD worked
actively and strategically to build the required infrastructure and improve the Complex Assets

                                                45                                             

Program since late 2007. JMD has also been instrumental in securing additional funding for this
project from fiscal year 2008 to 2011.1 The changes made to the program were time intensive, as
each program change must go through the formal program budget process and receive funding
prior to implementation. Thanks to these efforts, the infrastructure that now exists has enabled
the successful implementation of many improvements to the Complex Assets Program.

       Should you have any questions or concerns regarding this response, please contact
Ms. Isabel Howell, Audit Liaison, at 202-307-9744.

Attachments

cc:           L
              	 ouise Duhamel
              Acting Director
              DOJ Audit Liaison Group




                                                            
1
 Evidence of this was provided to the OIG auditors in numerous formats over the span of the audit, including copies
of budget requests and allocations; after actions reports; and exit interview materials.

                                                               46                                             

                             USMS Response to Draft Audit Report: 

          United States Marshals Service Complex Asset Team Management and Oversight 



Recommendation 1: Develop standard operating procedures that require the Complex Asset
Team to track pre-seizure requests received from and assistance provided to USAOs and
investigative agencies.

Response (Concur): The Complex Assets Unit has developed the tools to track pre-seizure
requests from and the subsequent assistance provided to USAOs and investigative agencies (IA).
In June 2010, the USMS Asset Forfeiture Division (AFD) developed the Complex Assets
Portal 2, which enables interactive tracking of these requests and assistance provided to the field.
The Portal also provides a reporting function to display gathered data. The portal has been fully
deployed since December 2010. The USMS also has developed and implemented the Business
Information Questionnaire (BIQ) form, which enables the Complex Assets Unit to capture
crucial available information regarding businesses targeted for forfeiture that is needed to aid
USAOs and IAs in their decisions as to whether it is in the best interest of the government to
proceed with the forfeiture action.3

Recommendation 2: Develop and provide standard operating procedures for abbreviated post-
seizure reviews of assets, as appropriate, when the Complex Asset Team receives little or no
notice prior to receiving assets from district offices.

Response (Concur; with clarification): The USMS requests that this recommendation be
clarified to read: “Develop and provide standard operating procedures for abbreviated post-
seizure reviews of assets, as appropriate, when the Complex Assets Unit receives little or no
notice prior to receiving assets from the USAO, Investigative Agency (IA), or district offices.”
In most cases, the lack of notification is not from the USMS district office, but rather the USAO
or IA.

The USMS has developed the tools for the standard operating procedures for post-seizure
reviews of assets for situations where there is little or no notice prior to receiving assets from the
USAO, IA, or district office. This includes the use of the BIQ, which is helpful in determining
the viability of businesses targeted, or in the case of this specific recommendation, held by
restraining order or seized for forfeiture so that a proactive exit strategy can be developed.

Recommendation 3: Ensure the Complex Asset Team documents required pre-seizure business
plan reviews.

Response (Concur; with clarification): The USMS has implemented a process to ensure that the
Complex Assets Unit documents pre-seizure business plan reviews. At the outset of an
engagement, the Complex Assets Unit obtains information utilizing many tools, including the
BIQ, public records searches, database searches, and review of documents obtained by the
USAO or IAs. Upon receipt of this information, the assigned team reviews and analyzes the
                                                            
2
    See Attachment 1 (screenshots from the Complex Assets Portal).
3
    See Attachment 2 (copy of BIQ).

                                                               47                                 

information and generates a formal business plan.4 The business plan is then presented to and
reviewed by the Steering Committee, which is comprised of three Senior Forfeiture Financial
Specialists (SFFS) from the Audits and Internal Controls Team. The committee operates in an
advisory capacity and provides the Complex Assets Unit with an open professional forum to
discuss and understand financial issues and implications that may exist around complex assets
and liabilities. The members are independent financial professionals who are not actively
involved in the complex case. They inquire and probe for case facts to ensure that proper
financial analysis and discovery have been performed. As necessary, additional outside expertise
is also consulted with to advise AFD on special financial issues. This process is tracked in the
Complex Assets Portal.

Recommendation 4: Require that responsible USMS officials review Complex Asset Team
business plans to ensure that they are completed and based on sufficient evidence.

Response (Concur): Beginning in December 2010, the USMS adopted a two-tier, and in certain
cases a three-tier, review to ensure responsible USMS officials review Complex Assets Unit
business plans for completeness and sufficient evidence. As detailed in the response to
Recommendation 3, once a business plan is created, an independent Steering Committee is
convened to examine the business plan. Second, the plan is reviewed by the Program Manager
of Operations, who oversees the Complex Assets Unit. In certain cases, summaries of these
plans are presented to the entire AFD Executive Group for a third level of review. Cases
presented for third-level review are based on factors such as complexity, value and lack of
precedence, or at the Program Manager’s request.

Recommendation 5: Clarify its policies to define more specifically the attributes of complex
assets and develop procedures for determining when and how assets should be classified as
complex assets. Such policy updates should ensure that district offices know what type of assets
merit Complex Asset Team Assistance.

Response (Concur; with clarification): On pages 15-16 of the draft report, it is implied that there
were “about 10,000 assets with a combined value of $3.52 [billion]” that were complex assets
and yet USMS Headquarters records only reported handling “55 of these assets with a value of
approximately $136 million,” or “just a fraction (less than 1 percent) of the approximately
10,000 seized or restrained businesses and financial instruments assets that the USMS policy
now defines as complex.” In actuality, the majority of the cited 10,000 assets referenced were
simple financial instruments (e.g., personal and cashier’s checks, Certificates of Deposits,
money orders, etc.), that were easily liquidated by the District Asset Forfeiture Units and,
therefore, did not require the assistance of the Complex Assets Unit. As document in USMS
Policy Directive 13.4, Businesses, Commercial Real Property, and Financial Instruments,5 there
are standard operating procedures available to districts that instruct them on how to process these
assets on their own and also note the availability of the Complex Assets Unit to assist in any
transaction. Therefore, although the USMS agrees there was a need to clarify both the definition
of complex assets and the role of the Complex Assets Unit, the problem/risk was not as systemic
or dire as presented in this report.
                                                            
4
    See Attachment 3 (sample business plan). 

5
    See Attachment 4 USMS Policy Directive 13.4 Businesses, Commercial Real Property and Financial Instruments 


                                                               48                                          

Draft USMS Policy Directive 13.4, Complex Assets6, defines complex assets as:

              Assets involving business entities, regardless of operational status, business
              entities with commercial real property interests,7 financial instruments,8 including
              marketable and non-marketable securities, interests in partnerships, insurance
              policies that may have value or no value, and intangible assets, (i.e. web sites,
              web domains, trade names, trademarks, patents, customer lists, and intellectual
              property rights).

Note: Commercial real property that is not tied to a business entity is not considered a
complex asset under the intent of the policy and should be processed in accordance with
real property procedures.

This policy is currently undergoing Agency review and is anticipated to be implemented
in the near future.

Recommendation 6: Ensure that the Complex Asset team (1) coordinates with JMD to update
CATS so that the pertinent USMS personnel can use it to identify whether an asset is a complex
asset (and therefore managed by the Complex Asset Team), (2) reconciles the assets referred to
the Complex Asset Team with assets that meet the updated definition in CATS, and (3) follows
up with the appropriate district office regarding the status of such assets not yet in the Complex
Asset Team portfolio.

Response (Concur; with clarification): As defined in the existing standard operating procedures
and the newly drafted policy, not all complex assets are managed by the Complex Assets Unit.
In many instances, complex assets are managed by District Asset Forfeiture Units with little or
no advice and assistance from the Complex Assets Unit.

The USMS is developing suggested modifications to CATS. Once drafted, the USMS will
consult with JMD and develop a formal proposal to be submitted to the Department’s Asset
Forfeiture and Money Laundering Section (AFMLS). In addition, processes have been
developed to reconcile CATS with Complex Assets Unit reports. Currently, manual
manipulation of certain CATS reports can provide this information. This is a cumbersome
process as it requires multiple queried reports to be run on a continuous basis and a side-by-side
comparison of the reports must be completed each time to extract the required information as it is
not contained on one concise report. Once modifications to CATS are approved, the USMS will
work with JMD to develop and deploy a more streamlined approach and automated
reconciliation process.

                                                            
6
  See Attachment 5 USMS Policy Directive DRAFT 13.4 Complex Assets
7
  Forfeiture actions involving business entities with commercial real property interests will be administered by the
Complex Asset Unit and/or the AFD Real Property Team as necessary.
8
  Pursuant to this policy, the custody, management and disposal of the following financial instruments are delegated
to the district office level: personal and cashier’s checks, certificates of deposit, postal and commercial money
orders, travelers checks, us savings bonds, airline tickets, gift cards, gift certificates, and store-value cards. Of
course, district offices may contact the Complex Asset Unit for consultation and assistance with these types of assets
at any time.

                                                               49                                               

Recommendation 7: Develop procedures that require the Complex Asset Team to track
consistently incoming notifications, requests, and referrals of assets-even if such advice concerns
assets that are not ultimately administered by the Complex Asset Team.

Response (Concur; with clarification): Pages 18-21 of the draft report states that there were
assets that were “administered in some way” by the Complex Assets Unit but lacked a case file.
The report further states that the auditors found “35 files that we determined fell within our scope
but were not included on the original list of assets provided.” As explained to the auditors, the
majority of these “assets” were never in the custody of the USMS, nor were they ever
“administered in some way” by the USMS. Rather, these assets were simply the subject of
telephone calls or informal inquiries received by Mr. Briskman from the field. Following this
informal inquiry, the assets were either handled by the District or were not seized or forfeited as
part of a case and, therefore, never received a CATS ID. In these instances, the USMS readily
acknowledges that the files kept were insufficient, but disagrees that there was a systemic
problem regarding assets that were “administered” without case files or purposely left off the
lists provided to the auditors.

As noted in previous responses, in order to improve transparency, the USMS has developed
standard operating procedures for tracking the flow of information, including notifications,
requests, and referrals. This is achieved through the implementation of the Complex Assets
Portal which was fully deployed in December 2010. This portal enables the Complex Assets
Unit to document inquiries and correspondence such as telephone calls and meeting notes, and to
upload related e-mails for storage and use by the Complex Assets Unit. The portal also enables
users to print reports about this information.

Recommendation 8: Implement policies that help standardize the asset files maintained by the
Complex Asset Team by (1) providing asset file templates for Complex Asset Team members;
(2) ensuring asset files contain up-to-date information regarding asset valuation and disposal
decisions; (3) facilitate and memorialize discussions with federal investigative agencies, USAOs,
and USMS district offices; and (4) offer a regimen by which Asset Forfeiture Division officials
periodically sample files for completeness and accuracy.

Response (Concur): As of March 2011, the Complex Assets Case File standard format9 has
been established and implemented. In addition, AFD has deployed the Complex Assets Portal
which enables the Complex Assets Unit to document discussions with IAs, USAOs, and USMS
district offices. The Audits and Internal Controls Team, AFD, has been and will continue to
work with the Complex Assets Unit to audit case files for completeness and accuracy.

Recommendation 9: Ensure that when the Complex Asset Team handles the day-to-day
management and works to sell an asset, the Team maintains and updates the official asset file
until final disposition.

Response (Concur): The Complex Assets Unit has developed and implemented a standard
format case file. Effective March 2011, the Complex Assets Unit has begun to maintain and
update the “official asset file” for those assets that are handled on a day-to-day basis.
                                                            
9
    See Attachment 6 Standard file format

                                                               50                              

Recommendation 10: Develop a more robust tracking system for assets held in bank accounts
that confirms the account’s existence and activity.

Response (Concur; with clarification): Page 23 of the draft report states that it is AFD’s
“practice . . . to transfer seized financial instruments from their respective banks or brokerage
houses to a central storage banking location.” This practice rarely has been utilized since the
departure of Mr. Briskman. These assets are now transferred only when directed by court order
or when there is a compelling reason to believe the financial instrument is not secure in its
current location. Moreover, in the event of either scenario, AFD executive leadership must
review and approve the transfer. The USMS will work to develop a more robust tracking system
for assets held in bank accounts that confirms the account’s existence and activity.

Recommendation 11: (To JMD): Upon receipt from the USMS of procedures for identifying
assets as complex, JMD update CATS so that local USMS district offices and the USMS Asset
Forfeiture Division can use it to identify whether an asset is a complex asset that is being
managed by the Complex Asset Team.

Response: For JMD response and requires no action from the USMS.

Recommendation 12: Develop detailed procedures for Complex Asset Team members to
follow when: (1) appraising the value of assets, which should include a requirement that the
Complex Asset Team maintain consistent and comprehensible records of the information and
techniques used to value assets and (2) disposing or selling specific types of complex assets
including limited partnership interests.

Response (Concur; with clarification): As reflected in pages 27-28 of the draft report, this
recommendation is based in part upon Mr. Briskman’s personal opinions and practices in
appraising and disposing of certain assets in USMS custody. In contrast, it was and remains the
position of the USMS that standard operating procedures regarding how assets are appraised and
disposed of must be followed and documented, and that the appraisal and disposal of assets must
be performed independently. AFD management counseled Mr. Briskman repeatedly regarding
these issues and put requirements in his performance plan to implement and abide by the
standard operating procedures.

Updates to existing policies and procedures have been developed to further specify the protocols
for appraising and disposing of assets, the requisite documentation for each activity, and the
required independence. These updates are currently under review by AFD leadership and will be
provided to OIG in future responses.

Recommendation 13: Ensure that different Complex Asset Team personnel are responsible for
valuing and disposing of the same asset.

Response (Concur): The tools have been developed to ensure that separate Complex Assets Unit
personnel are identified as to the valuation and disposal of an asset. It is also worth noting that in
the majority of cases, the valuation of assets is based upon resources independent of the Complex
Assets Unit.

                                                 51                                              

Recommendation 14: Ensure the Complex Asset Team develops a standardized and accurate
record of its asset management activities to provide to Asset Forfeiture Division Management.

Response (Concur): As stated in response to Recommendation 1, in June 2010, AFD developed
the Complex Assets Portal, which enables the Complex Assets Unit to record and track pre-
seizure requests from and assistance provided to the field, as well as print reports about this data.
Utilizing the Complex Assets Portal, AFD plans to develop a standardized and accurate record of
its asset management activities to provide to AFD Management. The USMS will provide OIG
with updates on this project in future responses.

Recommendation 15: Ensure that the Asset Forfeiture Division leadership: (1) periodically use
CATS (once it is updated to capture asset referrals made to the Complex Asset Team) to identify
assets referred to the Complex Asset Team and (2) reconcile the CATS list against submitted
Complex Asset Team activity reports.

Response (Concur): The Audits and Internal Controls Unit, AFD, is reviewing CATS as it
relates to complex assets, and is assisting in the reconciliation of Complex Asset Unit reports
with CATS reports. Currently, this process is time consuming and tedious due to the needed
changes in CATS. Once CATS is updated, this process will be further refined and improved.
The USMS will provide OIG with updates on this project in future responses.

Recommendation 16: Evaluate the level of authority granted to the position of Complex Asset
Team Leader and develop a tiered-approval structure that includes documenting Asset Forfeiture
Division Leadership approval for asset management decisions related to high-value assets.

Response (Concur): First, the USMS has implemented a new organizational structure. As
documented in the attached revised organizational chart10, the Complex Assets Unit is no longer
a standalone unit that reports to the Deputy Assistant Director, AFD. Instead, it reports to the
Program Manager of Operations, similar to the Real and Personal Property Team. As many
complex cases include a wide variety of assets, this new organization enables greater
collaboration and team work for management of the entire case. Further, once fully staffed, the
Complex Assets Unit will be led by an Assistant Program Manager of Complex Assets, and have
three full-time Case Coordinators. The team is also now supported by a dedicated Forfeiture
Financial Specialist at Headquarters and two contractor records examiners. This infrastructure
enables the more effective delegation of authority by position.

Secondly, the Case Coordinator working job description recently was created and implemented.
It clearly defines the separation between the responsibilities of the Assistant Program Manager of
the Complex Assets Unit and those individuals performing the day-to-day functions.


Lastly, delegation of authority statements have been developed for each position on the Complex
Assets Unit that are limited both in scope and number of what is necessary to achieve efficiency
while maintaining accountability in day-to-day operations.11
                                                            
10
     See Attachment 7 (Current AFD Organization Chart)
11
     See Attachment 8 (sample DOA)

                                                               52                               

Recommendation 17: Establish an internal review regimen tailored to assess the handling of all
assets, including FIRE assets, administered by the Complex Assets Team.

Response (Concur; with clarification): Prior to fiscal year (FY) 2009, AFD lacked the
infrastructure to implement an effective internal review process. The FY 2009 DOJ OIG audit of
the Assets Forfeiture Fund Financial statement identified two USMS weaknesses: (1)
“inadequate professional accounting skills” and (2) “a lack of an adequate audit and internal
controls function.” In response, the USMS requested and received funding for additional
government positions and, at the time, 14 contractor Forfeiture Financial Specialist positions.
Over the next year, the USMS utilized these resources to build the infrastructure of the AFD
Audits and Internal Controls Review Unit.

Now that the infrastructure of the AFD Audit and Internal Controls Unit has been developed,
AFD will work to implement this recommendation. The USMS will provide OIG updates on our
progress in future responses.

Recommendation 18: Ensure the Complex Asset Team develops a consistent consultation
process with the USMS Office of General Counsel.

Response (Concur; with clarification): USMS AFD leadership has long recognized the value of
legal consultation as it relates to complex assets and, over the years, has taken several actions to
address that need. In late 2007, current leadership requested that the Office of General Counsel
(OGC) play a more active role in the Complex Assets process. In the spring of 2009, AFD
recruited and hired a highly competent Presidential Management Fellow with both a law degree
and a Masters in Business Administration as a case coordinator for the Complex Assets Team.
This employee joined the Complex Assets Team in August 2009 and works closely with the
OGC Asset Forfeiture Team to identify and address legal issues arising from complex assets
cases. Since 2009, OGC has also added three attorneys to its Asset Forfeiture Team which
devotes a substantial portion of its legal services to complex assets cases. The two recently hired
attorneys, one an FSA contractor, have specialized legal experience and expertise in commercial
transactions, securities, and corporate legal matters, all of which are critical to complex assets.

OGC and the Complex Assets Team have multiple daily contacts and regular meetings regarding
cases and legal issues. Further, OGC provides the Complex Assets Team with legal guidance
memoranda and helps develop legal policy related to complex assets. In addition, as part of the
FY 2012 Assets Forfeiture Fund budget submission, the USMS requested a new government
full-time position to serve as the Asset Forfeiture Commercial Transaction Attorney. This
attorney will be located in OGC and fully dedicated to providing pre- and post-seizure legal
services in complex assets cases.

Recommendation 19: Evaluate whether forfeiture financial specialist contractors should be
provided a more definitive role with the Complex Asset Team.

Response (Concur; with clarification): Contrary to pages 36-37 of the draft report, from the
inception of the FFS program, one FFS (located in the USMS Southern District of New York)
was dedicated to working pre-seizure and complex asset cases hand-in-hand with the U.S.

                                                53                                             

Attorney’s Office. The other on-board FFS was assigned complex assets as a collateral
responsibility.

The USMS evaluated the FFS initiative during its implementation phase in 2009. This
evaluation recognized that the 14 FFSs did not have the capacity to effectively perform all four
functions originally identified for all 94 USMS Districts.12 As evidenced by the USMS FY 2010
AFF budget submission which was submitted in August 2009, the USMS took action and
requested an additional eight FFSs to be dedicated to complex assets and pre-seizure planning
(i.e., the “Jump Team”).13 Funding was approved for FY 2010 and the selection and hiring
process continues. Currently there are three FFS Jump Team members on-board located with the
Complex Assets Unit, the Southern District of New York, and the Middle District of Florida.14

Recommendation 20: Ensure that managers know that they must thoroughly review financial
disclosure forms and disclose any potential conflicts of interest to the USMS ethics office.

Response (Concur): AFD Executive Team members have been educated on this and will be
reminded annually as the review of forms occurs. In addition, the USMS Ethics Office is
developing an online training session for all Agency supervisors regarding the financial
disclosure forms and their roles. The training is anticipated to be rolled-out Agency-wide during
FY 2012.




                                                            
12
   The original four functions that all FFS were expected to perform for all 94 USMS Districts were 1) Audit
readiness and internal controls; 2) Financial guidance and support; 3) Financial expertise to support complex assets;
and 4) Support AF Financial Investigators (1811s)
13
   The eight positions that form the “Jump Team” serve two capacities: 1) supporting the USMS Complex Asset
Team; and 2) assisting the Asset Forfeiture Financial Investigators with pre-seizure. The FFS are able to provide
financial support and guidance to government complex asset case managers and AF 1811s for large, complex cases
by assisting in the review of asset valuations, ownership rights, net equity, and development of possible exit
strategies.
14
   See Attachment 9 (Brochure that further explains the current state of the FFS initiative)

                                                               54                                               

                                                                                  APPENDIX III

                       JUSTICE MANAGEMENT DIVISION
                       RESPONSE TO THE DRAFT REPORT
 
                                                         U.S. Department of Justice
                                                         Justice Management Division
                                                         Asset Forfeiture Management Staff
                                                         145 N Street, NE
                                                         Room 5W.511


                                                         Washington, D.C. 20530




MEMORANDUM

TO:     	          Troy Meyer
                   Regional Audit Manager
                   Washington Regional Audit Manager
                     Office
                              of the Inspector General

FROM:


SUBJECT: 	       United States Marshals Service Complex Asset Team Management and Oversight

Attached, please find the Justice Management Division (JMD) Asset Forfeiture Management
Staff’s response to a recommendation contained in Draft Audit Report: United States Marshals
Service (USMS) Complex Asset Team Management and Oversight.

If you have any questions, or if we may be of any further assistance, please contact Katherine
Drew Poppen, Assistant Director for Operations, on (202) 514-0892.

Attachment

cc: 	   Mary Myers
        Audit Liaison Specialist
        Audit Liaison Group
        Internal Review & Evaluation Office

        Michael Pannone 

        Program Analyst 

        Office of the Inspector General 

        Washington Regional Audit Office 

                                                55                                           

Attachment

                            Response to Draft Audit Report: 

     United States Marshals Service Complex Asset Team Management and Oversight 



Recommendation 11: Upon receipt from the USMS of procedures for identifying assets as
complex, JMD will update CATS so that local USMS district offices and USMS Asset Forfeiture
Division can use it to identify whether an asset is a complex asset that is being managed by the
Complex Asset Team.

Response (Concur with Clarification): Upon receipt of the USMS Complex Asset Team’s
complex asset policy and procedures, the Asset Forfeiture Management Staff will study the
feasibility of creating a “complex asset flag” to identify assets that meet the USMS’s definition
of a complex asset and that are managed by the USM AFD Complex Asset Team. Once the
determination is made, the AFMS will work closely with the USMS AFD to implement the
recommendation above or develop another more effective solution.




                                                56                                            

                                                                                  APPENDIX IV

     LEONARD BRISKMAN RESPONSE TO THE DRAFT REPORT
                                                    
                            The Brownell Firm, PC 
                                          Attorneys At Law 
                           ─────────────────────────────────────
                                   1050 17th STREET, NW, SUITE 700 
                                                                                                
                                    WASHINGTON, DC  20036­5503 
                         VOICE: (202) 822­1701      FACSIMILE: (202) 822­1914  
                                     www.thebrownellfirm.com 
                                                 
Bonnie J. Brownell*                                                               *Also Admitted in MD
Christopher R. Landrigan+                                                         +Also Admitted in VA
D. Robert DePriest^                                                               ^Also Admitted in NY
 

                                               August 19, 2011
Mr. Troy Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1300 N. 17th Street, Suite 3400
Arlington, VA 22209

Dear Mr. Meyer,

         We appreciate the opportunity to provide a response on behalf of our client, Mr. Leonard
Briskman, to the draft audit report from the Department of Justice (DOJ) Office of Inspector
General (OIG). After review of the draft report, we submitted several factual clarifications and
were disappointed to learn that the OIG would not revise their report accordingly. We
understand that you have agreed to attach this correspondence as well as the factual clarifications
to the final report. (A copy is attached for your convenience.)

        We are concerned that the draft report did not appropriately contextualize the role and
responsibilities of Mr. Briskman during the three distinct phases of asset management: pre-
seizure operations, tracking of assets post-seizure or restraint, and disposition of forfeited assets.
          
    I.   Pre-Seizure Operations

        During pre-seizure operations, Mr. Briskman responded to questions from investigative
agencies (IAs) and Assistant United States Attorneys (AUSAs) regarding the cost-effectiveness
of seizing or restraining an asset. The IAs/AUSAs were responsible for determining whether to




                                                 57                                                      

August 19, 2011
Troy Meyer
Page 2 of 3

seize or restrain1 an asset and initiated and maintained documentation (such as court orders)
regarding these decisions. After considering Mr. Briskman’s advice, among other factors, the
IAs/AUSAs determined whether to seize or restrain the particular asset. While they typically
chose to give great weight to Mr. Briskman’s expert opinion, and nearly every official greatly
appreciated his assistance, Mr. Briskman’s role during this process was that of an advisor.
 
    II.       Tracking of Assets Post-Seizure or Restraint

        The Complex Asset Team (Team) shared responsibility for recording accurate data in the
Consolidated Asset Tracking System (CATS) with the IAs. If the asset had an undisputed fair
market value (publically traded marketable securities), the Team would transcribe this value into
CATS. If the asset was commercial real estate, the Team would arrange for a certified appraisal.
If the asset was a business, stock of minority interests in privately held corporations, or a
partnership agreement, the IA placed a value in CATS. The Team monitored the CATS assets
and notified the IAs/AUSAs of any information of which they were aware that might suggest the
IA or AUSA should consider seizure or forfeiture. Here again, Mr. Briskman acted as an advisor
to the IAs/AUSAs.
 
    III. Disposition of Forfeited Assets

        The Complex Asset Team was responsible for initiating the sale of a forfeited asset in a
commercially feasible way. To do so, the Team utilized public bids, solicitations, and reputable
brokerage firms. Complex assets with binding prohibitions against public sales (e.g. minority
interests in privately held corporations and limited real estate or equity partnerships) were sold in
accordance with these applicable restrictions. When necessary, Mr. Briskman sought the advice
of counsel. The proceeds from each sale, with the supporting documentation, were then
transferred to the District Offices, who maintained the documentation. The Team sold assets as
effectively as possible. They did not value the assets other than transcribing the current price of
marketable securities.
 
       IV. Conclusion

         We are hopeful that you will reconsider Mr. Briskman’s role and conclude that in
context, he provided his extremely valuable expertise and advice to those responsible for seizing,
restraining, valuing and forfeiting complex assets. By definition, complex assets are complex,
and those seeking Mr. Briskman’s advice appreciated and valued his input. We do not comment
herein on whether additional resources, policies and procedures are warranted. Our only concern
is that your report accurately reflects that policies and procedures in effect to date as well as the
substantial value our client has provided to the Agency.




                                                            
1
    Businesses were virtually always initially restrained rather than seized.

                                                               58                               

August 19, 2011
Troy Meyer
Page 3 of 3

        We appreciate your attention to these comments and thank you again for this opportunity
to provide comments. Please do not hesitate to contact us if you have any questions or would
like to discuss this matter further.
        
                                                           Sincerely,



                                                           Bonnie J. Brownell, Esq. 



                                                           Christopher R. Landrigan, Esq.

Enclosure




                                              59                                            

                            The Brownell Firm, PC 
                                         Attorneys At Law 
                           ─────────────────────────────────────
                                   1050 17th STREET, NW, SUITE 700
 
                                    WASHINGTON, DC  20036­5503
                                 
                         VOICE: (202) 822­1701      FACSIMILE: (202) 822­1914
  
                                     www.thebrownellfirm.com
 

Bonnie J. Brownell*                                                                *Also Admitted in MD
Christopher R. Landrigan+                                                          +Also Admitted in VA
D. Robert DePriest^                                                                ^Also Admitted in NY



                                               August 12, 2011
Mr. Troy Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1300 N. 17th Street, Suite 3400
Arlington, VA 22209

Dear Mr. Meyer,

        We appreciate this opportunity to provide our factual clarifications on behalf of our
client, Mr. Len Briskman, regarding the draft audit report from the Department of Justice (DOJ)
Office of Inspector General (OIG). To assist your review and analysis of the management and
oversight of the United States Marshals Service (USMS) Complex Asset Team, we have
provided several factual clarifications to the quotations within.

        We respectfully request that you note these clarifications and revise the audit report as
necessary. In addition to providing these enclosed clarifications, Mr. Briskman is available to
offer his experience and expertise to assist the OIG as necessary.

       We appreciate your attention to these inaccuracies and thank you again for this
opportunity to provide comments. Please do not hesitate to contact us if you have any questions
or would like to discuss this matter further.

                                                                Sincerely,

                                                                                                    
                                                                Bonnie J. Brownell, Esq.


                                                                                                            
                                                                Christopher R. Landrigan, Esq.




                                                  60                                                   

August 12, 2011
Troy Meyer
Page 2 of 5

Page #    Quotation                          Clarification/Correction
iii       “OIG audit determined that …       The Complex Asset Team always completed pre-
          Complex Asset Team has not         seizure planning. Each case was reviewed with the
          instituted consistent pre-         investigative agency (IA) and the Assistant United
          seizure planning procedures.”      States Attorney (AUSA). This review would result in
                                             a decision as to how to proceed with processing the
                                             case and the assets. Due to the nature of the complex
                                             assets, the specific procedure in each case would
                                             often require a unique approach.
iii       “Briskman valued and sold the      Briskman never conducted certified business
          same asset.”                       appraisals. All commercial real estate assets were
                                             appraised by outside commercial appraisers selected
                                             by the District. Business appraisal values were
                                             placed into the CATS system by the investigative
                                             agencies upon seizure or restraint of assets. Upon
                                             occasional request from the AUSA or individuals
                                             handling the CATS system, Briskman would provide
                                             “rule of thumb” values.

                                             Real estate brokers acted as the selling agents for
                                             commercial real estate. Listing agreements were
                                             signed by both the Districts and the Complex Asset
                                             Team.
v         “[T]he Complex Asset Team          While we are unaware of the exact amount of the sale
          disposed of approximately          figures, we are confident that $136 million is
          $136 million in complex assets     inaccurate.
          between January 2005 and
          August 2010.”
viii-ix   “Specifically with regard to the   The tax issues did not deter the sale. The business
          waste management facility          value had fallen considerably due to the recession and
          noted above, neither               lack of management depth. Further, the implication
          Briskman’s reliance on             that the Complex Assets Team acted independently
          observations of on-site activity   and “informally” is untrue: the team had formally
          nor subsequent administrative      contracted with an investment banking firm,
          activity identified the effect     XXXXXXXXXXXXXXXXXXXXX, to sell this
          legal restrictions and tax         particular business.
          liabilities would have on the
          sale of the business.”
xi        “[T]he Complex Asset Team          See response to page iii above.
          did not employ procedures that
          segregated appraisal duties
          from selling functions.”




                                                61                                            

August 12, 2011
Troy Meyer
Page 3 of 5

xi      “[The Complex Asset Team]          All assets were sold in a commercially feasible way.
        lack[ed] procedures governing      Assets that were solicited for public exposure when
        the Complex Asset Team’s           possible, such as publically traded securities sold at
        asset disposal process, which      market prices through reputable brokerage firms at
        often resulted in a lack of        competitive commission rates. Some complex assets
        public exposure for forfeited      had restrictions which precluded exposure to the
        assets.”                           general public.
xii     Briskman’s monthly asset           Mr. Briskman does not recall his reports lacking
        activity reports were often        critical information.
        brief summaries that lacked
        critical details and at times
        were inaccurate.
xiii    “Morales also said that despite    To Mr. Briskman’s knowledge, the Complex Asset
        repeatedly directing Briskman      Team kept Morales fully updated. Mr. Briskman
        to improve his procedures, he      does not recall Morales repeatedly directing him
        was unable to compel the           regarding this issue.
        Complex Asset Team to
        remedy many of its practices –  Morales asked all the asset forfeiture groups to update
        most particularly its inadequatetheir policies. Mr. XXXXXXXXXXXXXX, a
        asset management                contract in-house attorney, was revising the Complex
        recordkeeping.”                 Asset Team policies and would frequently collaborate
                                        with Mr. Briskman regarding certain procedures.
                                        These revisions were being completed when Mr.
                                        Briskman was reassigned.
xiv     “[T]he [Complex Asset Team] Per Agency policy, the District Offices hold all
        could neither identify its      official files of each case. This information included
        historical workload nor         expenses during the pendency, the sales information,
        generate important              copies of sales contracts, purchaser(s), the proceeds
        performance-based               from the sale, and all other necessary information
        information such as the sale    related to the case. All sale proceeds were sent to the
        price and ultimate purchaser of District of the sale. The Complex Asset Team only
        assets.”                        used “working files.” The data referenced in the
                                        report is accessible through consulting the District
                                        Offices.
15      “[B]etween 2005 and 2010, the See response to page v above.
        Complex Asset Team handled
        and disposed of only 55 assets
        with a value of approximately
        $136 million.”
18      Full second paragraph.          See response to page xiv above.
23      “[C]hanges in asset account     Assuming this statement addresses the portfolio of
        balances were not periodically publically traded securities, the policy to send
        updated in CATS.”               updated values to the Districts on a quarterly basis
                                        was followed to Mr. Briskman’s knowledge.


                                              62                                             

August 12, 2011
Troy Meyer
Page 4 of 5
 
27      “[T]he Complex Asset Team          For publically traded securities, the Working Files
        did not maintain                   usually contained a copy of the Yahoo Finance
        comprehensible records of the      current stock price. For business, whatever
        market research that it            significant information was available on the Web
        performed.”                        would be placed in the file. Commercial real estate
                                           usually had copies of the most recent appraisal.

                                           See also response to page xiv above.
27      “Briskman sometimes spoke          We note that Mr. Briskman never solicited for buyers
        with and vetted potential          prior to forfeiture. Interested buyers learning of a
        buyers prior to receiving final    potential forfeiture occasionally contacted Mr.
        forfeiture orders for assets.”     Briskman. Mr. Briskman retained their name and
                                           information but did not contact them prior to the
                                           forfeiture.
28      “Briskman stated that he did       In the case of the Delta asset, the restriction was due
        not believe that the Complex       to the partnership agreement (a partner could only sell
        Asset Team could publicly          his or her interest to another partner and only at the
        announce the sale of these         Net Asset Value that existed at the time).
        assets because the nature of the
        existing partnerships tied to    In the case of the PetCare asset, the restriction was
        these assets limited the         due to the requirement to register with the SEC to
        potential market of buyers.”     solicit the sale of a minority interest in a privately
                                         held company.

                                           It is unclear in the report whether solicitations may
                                           have occurred in either or both of these two specific
                                           situations according to OGC.
32      “[S]ome of the entries             Changes in status typically referred to changes that
        contained unexplained changes      may materially change the status of the asset, such as
        from the previous monthly          new court orders, management changes, or an asset’s
        status report. For example, the    significant decrease in value. Mr. Briskman’s status
        listed taxable profit amount for   was not inaccurate because only profits that
        one asset varied from $9.5         decreased – not increased – were typically considered
        million to $12 million between     “changes” for purposes of Mr. Briskman’s
        different report; however, the     supervisor’s consideration.
        entries provided to summarize
        the changes for this particular
        asset in subsequent reports
        were ‘no change from previous
        report.’”




                                              63                                              

August 12, 2011
Troy Meyer
Page 5 of 5
 
34      “Morales repeatedly directed        See response to page xiii above.
        Briskman to improve his
        procedures but was unable to
        compel the Complex Asset
        Team to remedy many of its
        practices – most particularly its
        inadequate asset management
        recordkeeping.”
35      “[T]he Complex Asset Team           Mr. Briskman did solicit legal advice when necessary
        lacked adequate processes to        and consulted with attorneys, including the USMS’s
        obtain proactive legal counsel      Office of General Counsel, frequently.
        regarding asset management
        issues. Instead, it would only      The majority of Mr. Briskman’s daily conversations
        contact the USMS’s Office of        were with attorneys concerning particular assets. For
        General Counsel when a              active cases, he spoke to the AUSA handling the case
        particular legal problem would      sometimes multiple times in a single day. He also
        arise during asset                  frequently spoke to and met with
        administration or disposal. …       XXXXXXXXXXXX of the USMS General Counsel,
        [T]he Complex Asset Team            who specialized in forfeiture matters. Mr. Briskman
        did not solicit legal advice        also frequently consulted with attorneys in DOJ Asset
        when necessary.”                    Forfeiture Money Laundering Division (AFML). Mr.
                                            Briskman would also often consult with in-house
                                            contract attorney XXXXXXXXXXXXXX, former
                                            head forfeiture attorney at DEA. An individual
                                            reporting directly to Mr. Briskman on the team is an
                                            attorney as well.




                                               64                                           

                                                            APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the USMS, JMD, and
former leader of the Complex Asset Team, Leonard Briskman. The USMS
response is incorporated in Appendix II, JMD’s response is incorporated in
Appendix III, and Briskman’s response is incorporated in Appendix IV. In
this appendix, Part A details our analysis of Briskman’s response. This is
followed by Part B, which contains a summary of actions necessary to close
the report. Part B also incorporates our analysis of portions of the USMS
and JMD responses that were not specific to our recommendations.

A. Analysis of Briskman’s Response

       The attorney for Leonard Briskman provided two responses to the draft
report that contained information that did not pertain to our
recommendations. The first response, dated August 12, 2011, cites 18 parts
of the draft report and offers an explanation or clarification for each. The
second response, dated August 19, 2011, provides additional context for the
assertions made in the August 12 response and serves as a cover letter. In
this section, we address by report section the issues raised in both of these
responses. We refer herein to the respective letters from Briskman’s
attorney as “Briskman’s response.”

Pre-Seizure Planning

      Briskman’s August 19 response stated that during pre-seizure planning
Briskman simply served in an advisory capacity and fielded questions about
assets from investigative agencies and the Assistant U.S. Attorneys (AUSA).
The response stated that investigative agencies and the AUSAs – and not the
Complex Asset Team – were responsible for deciding during the pre-seizure
planning phase whether an asset would be seized or restrained. Briskman’s
August 12 response stated that the Complex Asset Team always completed
pre-seizure planning by reviewing with the investigative agency and AUSA
how to proceed with a case and its assets. This response also said that due
to the nature of complex assets, the specific pre-seizure procedure in each
case would often require a unique approach.




                                     65 

      Our report does not state that the Complex Asset Team had anything
other than an advisory role in pre-seizure planning. Instead, our report
underscores the important role the Complex Asset Team has to assist and
consult with investigative agencies and the AUSAs during pre-seizure
planning. Because investigative agencies and AUSAs rely on the Complex
Asset Team’s advice, it is important that the USMS consistently documents
pre-seizure planning reviews and the advice the Complex Asset Team
provides to all parties deciding whether to seize or restrain an asset.

      Briskman’s August 12 response stated that pre-seizure planning
always occurred during his tenure. However, statements we received from
Complex Asset Team members indicated that investigative agencies and
AUSAs have not always provided prior or sufficient notice to the Complex
Asset Team about potentially complex assets before seizure or restraint.
Adequate pre-seizure planning can only occur after the Complex Asset Team
receives prior and sufficient notice about such assets. If the Complex Asset
Team provided advice or guidance about an asset after it was seized or
restrained, this by definition can not constitute pre-seizure planning.

       In addition, the report does not dispute Briskman’s assertion that the
unique nature of each complex asset makes it is difficult to have fixed
criteria for pre-seizure planning. Our report simply recommends that the
USMS employ a standard approach for documenting pre-seizure advice and
business plans provided to the investigative agencies and AUSAs responsible
for deciding whether to seize or restrain an asset. This is because we found
the Complex Asset Team files, particularly records pertaining to pre-seizure
planning, were disorganized and incomplete. Lacking complete and accurate
records, we could not verify the frequency or thoroughness of the pre-
seizure planning that occurred under Briskman’s tenure.

        In reference to the forfeited waste management facility associated
with James Galante, Briskman’s August 12 response stated that tax issues
did not deter the sale of this and other associated assets. Briskman’s
response posited that other variables, including the recession and
management issues, resulted in the decline of the value of this and other
associated assets. The report recognizes that there may be a number of
variables that affect the value of assets and the USMS’s corresponding ability
to dispose of them. However, following Briskman’s transfer from the
Complex Asset Team, the USMS determined that because the government
assumed responsibility for the businesses, and the businesses had significant
liabilities (such as state and federal taxes), the government could not
consummate a sales agreement for certain parts of the business without
addressing tax liability issues.


                                     66 

       Further, the Complex Asset Team should have been positioned to
identify earlier that certain legal restrictions and tax liabilities could affect
the ability of the government to dispose of these assets. Although the
Complex Asset Team did contract with an investment banking firm to assist
in the disposition of these assets, the report focuses on the concern that
Briskman’s informal approach to offering advice and assessing the value of
assets prior to restraint or seizure might not account for issues that
negatively affect whether the asset can subsequently be administered and
sold effectively.

Recordkeeping and Tracking of Assets

      Briskman’s August 12 response stated that the USMS district offices
maintain the official files for each case and that the Complex Asset Team
only maintains “working files.” Our report recognizes that the Complex
Asset Team has not been responsible for maintaining asset records. We
believe that this lack of file management responsibility has contributed to
the disorganized and incomplete state of records we found at the Complex
Asset Team offices at USMS headquarters. Even though many management
and disposition decisions, such as how best to maintain and safeguard a
particular asset, are made by Complex Asset Team officials, most of the
records we reviewed did not specifically document the rationale supporting
these decisions. In our opinion, the Complex Asset Team should be
responsible for documenting this material because USMS district offices are
not positioned to document decisions made by the Complex Asset Team
accurately and completely.

       Briskman’s August 12 response also indicated that it was the Complex
Asset Team’s policy to send updates to district offices on the values of
securities on a quarterly basis. District offices would then presumably
update the asset data in the Consolidated Asset Tracking System (CATS).
However, due to the disorganized and incomplete state of records, our
report notes that we were unable to verify whether the Complex Asset Team
communicated the accurate status of assets to local districts. The assertion
in Briskman’s response is troubling because if the Complex Asset Team is
aware of the current value of assets in CATS, it should take responsibility for
updating this data in CATS instead of delegating this duty to the district
offices.




                                        67 

       Specifically regarding the accuracy of data in CATS, Briskman’s
August 19 response stated that the USMS shares the responsibility to update
data with the investigative agency. Briskman’s response stated that the
Complex Asset Team would update the value of securities in CATS while
investigative agencies were responsible for updating the value of businesses,
limited partnerships, and interests in privately-held companies. Our report
identified a breakdown in updating CATS with the value of assets held in
external bank accounts. Specifically, a USMS contractor found that the
value of these financial instruments was understated in CATS by $3 million.

      Briskman’s August 12 response further questioned our methodology in
calculating the Complex Asset Team’s disposal workload from 2005 until
Briskman’s transfer in 2010. Due to the disorganized and incomplete
recordkeeping of Complex Asset Team, relevant USMS employees could not
generate a complete historical record of assets managed by the Team. After
multiple discussions with the Complex Asset Team, and a thorough review of
available records, we developed a methodology that conservatively
estimated the Team’s activity at 55 assets disposed with a value of
approximately $136 million. Briskman’s response explicitly stated that
Briskman is unaware of the exact amount of the sale figures, a statement
that we believe summarizes the primary issue: the Complex Asset Team
under Briskman maintained inadequate records of important decisions and
figures relevant to the asset management and disposal process.

Asset Valuations and Dispositions

       Briskman’s August 12 response asserted that: (1) Briskman never
conducted certified business appraisals, (2) all commercial real estate assets
were appraised by outside commercial appraisers selected by the local USMS
district, (3) investigative agencies placed in CATS the value of business
assets, and (4) Briskman would provide “rule of thumb” asset valuations
when requested by the AUSA or investigative agencies. Also for commercial
real estate assets, the response stated that real estate brokers acted as the
selling agents and listing agreements were signed by both district and
Complex Asset Team officials. These statements do not negate the issue
that Briskman, at least in some circumstances, valued and then sold the
same asset.




                                     68 

       Given the unique nature of many complex assets, we found that the
asset valuation and sale procedures depended largely on the particular
circumstances surrounding the asset. The report found that the Complex
Asset Team did not maintain formal market research procedures guiding
how to value different types of assets. Although outside commercial
appraisers valued real estate assets, outside commercial appraisers did not
consistently appraise non-real estate assets. While Briskman’s August 19
response stated that the Complex Asset Team did not value assets beyond
transcribing the current price of marketable securities, Briskman told us in a
prior interview that he applied his experience as a certified business
appraiser to value complex assets, including businesses. Briskman’s August
12 response stated that these valuations did not constitute “certified”
business appraisals, yet his “rule of thumb” valuations were entered into
CATS by investigative agencies and AUSAs. As a result, Briskman’s “rule of
thumb” valuations effectively became the value of record within the
Department of Justice’s official asset tracking system.

       In addition, the report noted that the Complex Asset Team did not
maintain comprehensible records of the market research that it conducted to
perform valuations. Briskman’s August 12 response stated that for publicly-
traded securities, the Team’s working files usually contained a copy of the
Yahoo Finance Web site’s current stock price and other information
“available on the Web.” The response said the files for commercial real
estate assets usually had copies of the most recent appraisal. This
assertion, however, does not align with the state of Complex Asset Team
files we found during our audit. Many of the records amounted to personal
notes that did little to justify empirically asset valuation decisions and
results. We believe that Briskman’s response reinforces our finding that the
Complex Asset Team’s market research procedures and records were
informal. While Briskman may have included copies of appraisals for
commercial real estate assets in the asset file, we were unable to identify a
clear system for recording market research involving all types of complex
assets.

       Regarding the disposition of assets, Briskman’s August 12 response
asserted that Briskman never solicited buyers prior to forfeiture, although
interested buyers occasionally contacted Briskman upon learning of a
potential forfeiture. Briskman’s response stated that, when this occurred, he
would retain the contact information of interested buyers but would not
contact them prior to the forfeiture. However, the audit identified instances
when Briskman apparently was negotiating the sale of two assets seized as
part of the Bernard Madoff criminal forfeiture case – shares of PetCare Rx
and the Delta Fund. For these assets, negotiations took place despite the
fact that a final order of forfeiture had not yet been issued for these assets.

                                      69 

      Briskman’s responses also contended that the Complex Asset Team
sought to sell all complex assets in a “commercially feasible way.” The
responses stated that, when possible, assets were solicited for public
exposure and that publicly-traded securities were sold through brokerage
firms at competitive commission rates. Briskman’s responses also said that
Briskman believed the Complex Asset Team could not publicly announce the
sale of particular assets because some had restrictions that precluded a
public sale. In particular, the August 12 response stated that Briskman
believed these restrictions applied to the two aforementioned Madoff assets:
shares of PetCare Rx and the Delta Fund.

      Our report recognized that the existing guidance that the government
should dispose of forfeited assets through “commercially feasible means”
was not straightforward. Following Briskman’s transfer, the USMS Office of
General Counsel issued an opinion holding that securities regulations permit
the government to offer publicly shares in closely-held companies and
limited partnerships in certain circumstances. While the Complex Asset
Team lacked clear and consistent guidance regarding the appropriate
methods to solicit buyers and sell assets, we would expect that the Complex
Asset Team be required to provide at least a transparent justification for the
methods it used to dispose of complex assets. Regarding the Madoff assets
cited above, the AUSA responsible for the case deemed the proposed sales
inadequate and non-transparent. The report therefore recommends that the
USMS clarify its guidance regarding how the Complex Asset Team should
best dispose of different types of assets and when a public sale should be
performed.

      The report found that separation of duties were not achieved when
Briskman was responsible for negotiating the sale of an asset with a
recorded value based on his “rule of thumb” valuation technique. The report
highlights that when this occurred, Briskman was not in a position to refute
potential accusations that asset sale prices were manipulated or that sales of
assets were directed to specific purchasers. Although we found no evidence
to suggest that Briskman manipulated the valuation or sale of assets, asset
valuation and sale procedures must be as transparent as possible. To this
end, the internal valuation and sale functions for complex assets should be
separated.




                                     70 

Complex Asset Team Oversight

       Briskman’s August 12 response disagreed with our assertion that
monthly reports prepared for Assistant Director Morales lacked critical details
and at times were inaccurate. The response asserted that it was not
necessary to mention increases in asset values in the monthly reports
because such information was not considered relevant. According to the
response, Briskman instead believed that these reports should only mention
significant declines in asset values, new court orders, and management
changes. While such information is relevant to the USMS management, we
believe the assertion in Briskman’s response missed the larger point that
accurate and complete asset information is particularly important due to the
absence of a transparent recordkeeping system or tracking mechanism
employed for complex assets.

       The August 12 response also disagreed that Morales repeatedly
directed Briskman to remedy Complex Asset Team deficiencies – particularly
its inadequate recordkeeping – and, as a result, was unable to improve
internal Complex Asset Team operations. This information was based on
discussions with multiple USMS employees, including Assistant Director
Morales, and the fact that Briskman’s records were disorganized and
incomplete. Further, although Briskman’s response stated that he was
working with an in-house attorney to revise Complex Asset Team policies,
we found no evidence to suggest that any new internal controls procedures –
such as a segregation of asset valuation and disposal responsibilities or a
tiered approval structure based on the relative value of assets – had been
developed or implemented prior to our audit.

       Briskman’s August 19 response stated that Briskman sought the
advice of legal counsel when necessary, and Briskman’s August 12 response
stated that many of Briskman’s daily conversations concerning particular
assets were with attorneys, including AUSAs. Briskman’s responses said
Briskman frequently spoke to and met with members of the USMS Office of
General Counsel and consulted with attorneys from both the USMS and the
Criminal Division’s Asset Forfeiture and Money Laundering Section.
However, the report noted that Briskman’s position granted him the “final
authority” over negotiating and implementing restraining orders involving
assets referred to the Complex Asset Team and left him responsible for
identifying issues requiring legal counsel. We believe that to address asset
issues proactively, the Complex Asset Team should be in the position to
obtain proactive legal advice regarding asset management and disposition.




                                      71 

B. Summary of Actions Necessary to Close the Report

     The following section summarizes the actions that the USMS and JMD
have advised they have taken or will take to address the 20
recommendations included in the report.

    1.	 Resolved. The USMS concurred with our recommendation to
        develop standard operating procedures that require its Complex
        Asset Team to track pre-seizure requests received from and
        assistance provided to United States Attorneys’ Offices (USAOs) and
        investigative agencies. The USMS stated in its response that it has
        developed and implemented a Complex Assets Portal (Portal) to
        track pre-seizure requests and display gathered data. The USMS
        also stated that it has implemented a Business Information
        Questionnaire form, which enables the Complex Asset Team to
        capture information regarding businesses targeted for forfeiture.
        This recommendation can be closed when the USMS provides the
        OIG with a sample of entries from its Portal and Business
        Information Questionnaire forms demonstrating that the Complex
        Asset Team is consistently tracking pre-seizure requests and similar
        communications from USAOs and investigative agencies.

    2.	 Resolved. The USMS concurred with our recommendation to
        develop and provide standard operating procedures for abbreviated
        post-seizure reviews of assets, as appropriate, when the Complex
        Asset Team receives little or no notice prior to receiving assets from
        district offices. The USMS stated that it will use the Business
        Information Questionnaire form to determine the viability of
        businesses targeted or seized for forfeiture. The USMS stated that
        this, along with its other processes, will help develop a proactive
        asset management and disposal strategy. This recommendation
        can be closed when the USMS demonstrates that it has developed
        and adhered to standard operating procedures for abbreviated post-
        seizure review, in specific instances when the Complex Asset Team
        has assumed responsibility for assets on short notice.

        Additionally, in its response, the USMS requested that we modify
        the recommendation to reflect the fact that the Complex Asset
        Team may receive assets on short notice not only from USMS
        district offices, but also from USAOs and investigative agencies.
        After reviewing our audit documentation, we have adjusted the
        language of our recommendation accordingly.



                                     72 

3.	 Resolved. The USMS concurred with our recommendation to
    ensure that the Complex Asset Team documents required pre-
    seizure business plan reviews. The USMS stated it has
    implemented a process to ensure that the Complex Asset Team
    tracks relevant pre-seizure information, which is then used to
    generate a formal business plan. The USMS explained that a
    Forfeiture Financial Specialist Steering Committee will analyze and
    review this plan and advise the Complex Asset Team regarding
    potential liabilities surrounding assets. According to the USMS, this
    process will be tracked in the Portal. This recommendation can be
    closed when the USMS demonstrates that it is consistently
    generating and documenting business plan reviews and tracking
    them within the Portal.

4.	 Resolved. The USMS concurred with our recommendation
    requiring that responsible officials review Complex Asset Team
    business plans to ensure that they are complete and based on
    sufficient evidence. The USMS stated in its response that it has
    implemented a multi-tiered review process that it believes will
    ensure that business plans are performed and based upon sufficient
    evidence. This recommendation can be closed when the USMS
    provides the OIG with evidence demonstrating that this business
    plan review process occurs on a consistent basis.

5.	 Resolved. The USMS concurred with our recommendation to
    clarify its policies to define more specifically the attributes of
    complex assets and develop procedures for determining when and
    how assets should be classified as complex assets. According to
    our report, such policy revisions should ensure that district offices
    know what types of assets merit Complex Asset Team assistance.
    The USMS agreed that there was a need to clarify the definition of
    complex assets and submitted a new, more specific definition. The
    USMS also provided draft policy regarding the role of the Complex
    Asset Team, which specifically defined the respective
    responsibilities of the USMS districts and the Complex Asset Team
    in the management of complex assets. This recommendation can
    be closed when the USMS provides evidence that it has finalized
    this draft policy and that it has been implemented.

    The USMS response questioned the report’s statement that there
    were approximately 10,000 assets with a combined value of
    $3.52 billion that met the March 2010 categorical definition of
    “complex asset.” While the USMS contended in its response that
    many of these assets did not warrant Complex Asset Team

                                 73 

    involvement, we included this information in the report to
    demonstrate that the existing definition of complex assets under
    USMS policy, namely “a(n) operating business, commercial real
    estate, or financial instrument (including marketable and non-
    marketable securities, interests in partnerships and insurance
    policies) that may have value,” was overly broad and merited
    revision to reflect the more discrete universe of assets that the
    Complex Asset Team actually consulted on or administered.

6.	 Resolved. The USMS concurred with our recommendation to
    ensure that the Complex Asset Team (1) coordinates with JMD to
    update CATS so that the pertinent USMS personnel can use it to
    identify whether an asset is a complex asset, (2) reconciles the
    assets referred to the Complex Asset Team with assets that meet
    the updated definition in CATS, and (3) follows up with the
    appropriate USMS district office regarding the status of such assets
    not yet in the Complex Asset Team portfolio.

    The USMS stated in its response that it is developing the suggested
    modifications to CATS and will consult with JMD to develop a formal
    proposal. This recommendation can be closed when the USMS
    provides evidence that it is working with JMD to enable USMS
    headquarters and district office personnel to use CATS to identify
    complex assets and also determine whether the Complex Asset
    Team has assumed full responsibility for the asset or if asset
    management responsibility has been delegated to the district office.
    To close this recommendation, the USMS must also demonstrate
    that it is using this new CATS functionality to reconcile the assets
    referred to the Complex Asset Team against those identified in
    CATS as “complex”.

7.	 Resolved. The USMS concurred with our recommendation to
    develop procedures that require the Complex Asset Team to track
    consistently incoming notifications, requests, and referrals of assets
    – even if such advice concerns assets that are not ultimately
    administered by the Complex Asset Team. The USMS stated the
    Portal will track asset notifications, requests, and referrals, as well
    as document inquiries and correspondence regarding assets. This
    recommendation can be closed when the USMS provides evidence
    that such information is consistently captured within the Portal for
    all assets with which the Complex Asset Team has had involvement,
    even those not ultimately administered by the Team.



                                 74 

    The USMS response expressed concern with the report’s discussion
    of 35 asset records that we identified and found were absent from
    the Complex Asset Team listing of assets it had administered. The
    USMS stated that these assets were simply the subject of telephone
    calls or informal inquiries that Briskman received from the field.
    The USMS further stated that these assets were either handled by
    the district offices or never received a CATS identification number
    because they were not seized or forfeited. However, we believe
    this may not be accurate given that 21 of these 35 assets did in fact
    have CATS identification numbers, indicating a formal step in the
    forfeiture process. While the USMS asserts that these assets were
    not “administered in some way,” we maintain that the Complex
    Asset Team should have tracked the assets about which it was
    consulted and also memorialized the advice or assistance provided,
    regardless of the level of the Team’s involvement.

    The aim of this recommendation is to ensure that the Complex
    Asset Team performs tracking functions that allow it to provide
    evidence supporting the status of each asset and respective USMS
    headquarters and district office responsibilities in managing the
    asset. The report does not assert that the USMS “purposefully” left
    these assets off its listings, but instead referenced these files to
    highlight inadequate Complex Asset Team recordkeeping practices.
    We provided the USMS with multiple opportunities during the audit
    to explain the status of the 35 asset files, yet the USMS was not
    able to identify the specific circumstances surrounding each asset
    file. The Complex Asset Team’s inability to determine the extent of
    its involvement with these 35 asset files during the audit supports
    our assertion that the Team’s records were disorganized and
    incomplete.

8.	 Resolved. The USMS concurred with our recommendation to
    implement policies that help standardize the asset files maintained
    by the Complex Asset Team by: (1) providing asset file templates
    for Complex Asset Team members; (2) ensuring asset files contain
    up-to-date information regarding asset valuation and disposal
    decisions; (3) facilitating and memorializing discussions with federal
    investigative agencies, USAOs, and USMS district offices; and
    (4) offering a regimen by which Asset Forfeiture Division officials
    periodically sample files for completeness and accuracy. The USMS
    stated that as of March 2011, a standard complex asset case file
    has been established and that the Portal will enable the Team to
    document discussions with investigative agencies, USAOs, and
    USMS district offices. Further, the USMS states that its Asset

                                 75 

    Forfeiture Division Audits and Internal Control Team will continue to
    work with the Complex Asset Team to audit case files for
    completeness and accuracy. This recommendation can be closed
    when the USMS provides the OIG with evidence, such as examples
    of complete complex asset case files and Portal entries, that
    demonstrates relevant case information is consistently collected and
    sufficiently organized.

9.	 Resolved. The USMS concurred with our recommendation to
    ensure that when the Complex Asset Team handles the day-to-day
    management and works to sell an asset, the Team maintains and
    updates the official asset file until final disposition. The USMS
    stated that the Complex Asset Team has developed and
    implemented a standard format case file and that the Team has
    begun to maintain and update “the official asset file” for those
    assets that are handled on a day-to-day basis by the Team. This
    recommendation can be closed when the USMS provides the OIG
    with evidence that demonstrates that recordkeeping responsibilities
    have been appropriately delegated between USMS headquarters
    and the district offices.
10. Resolved. 	The USMS concurred with our recommendation to
    develop a more robust tracking system for assets held in bank
    accounts that confirms account existence and activity. The USMS
    stated that assets are now transferred to a central banking location
    only when directed by court order or when there is a compelling
    reason to believe the financial instrument is not secure in its
    current location. Further, the USMS stated that Asset Forfeiture
    Division executives must now review and approve the transfer.
    This recommendation can be closed when the USMS provides
    evidence that it has implemented a method by which it can track
    assets held in bank accounts and the activity of these accounts.

11. Resolved. JMD agreed with our recommendation to ensure that,
    upon receipt of procedures from the USMS for identifying assets as
    complex, JMD will update CATS so that local USMS district offices
    and USMS Asset Forfeiture Division can use CATS to identify
    whether an asset is a complex asset that is being managed by the
    Complex Asset Team. In addressing this recommendation, JMD
    stated that its Asset Forfeiture Management Staff (AFMS) will study
    the feasibility of creating a “complex asset flag” to identify assets
    that meet the USMS’s definition of a complex asset. Once this
    feasibility is determined, AFMS will then work closely with the USMS
    to implement the indicator or develop a more effective solution.
    This recommendation can be closed when we receive evidence that

                                 76 

    JMD has evaluated the feasibility of creating a “complex asset flag”
    and has implemented the flag or otherwise developed and
    implemented what it believes to be a similarly effective solution.

12. Resolved. 	The USMS concurred with our recommendation to
    develop detailed procedures for Complex Asset Team members to
    follow when: (1) appraising the value of assets and (2) disposing
    or selling specific types of complex assets including limited
    partnership interests. The USMS stated in its response that the
    Complex Asset Team’s past asset valuation, disposal, and
    documentation practices were based on team member opinions as
    opposed to USMS standard operating procedures. Further, the
    USMS stated that updates to existing policies and procedures have
    been developed to include additional protocols for appraising and
    disposing of assets, the requisite documentation for each activity,
    and the independence necessary to perform these duties. This
    recommendation can be closed when the USMS provides evidence
    that these policy updates have been implemented and are being
    followed by the Complex Asset Team.

13. Resolved. 	The USMS concurred with our recommendation to
    ensure that different Complex Asset Team personnel are
    responsible for valuing and disposing of the same asset. The USMS
    stated that it has developed the tools to ensure that different
    Complex Asset Team personnel work on the valuation and disposal
    of an asset. The USMS adds that in most cases, the valuation of
    assets is performed independently from the Complex Asset Team.
    This recommendation can be closed when the USMS provides
    evidence that future valuation and disposition functions remain
    separate.

14. Resolved. 	The USMS concurred with our recommendation to
    ensure that the Complex Asset Team develops a standardized and
    accurate record of its asset management activities to provide to
    Asset Forfeiture Division management. The USMS stated that the
    Portal will enable the Complex Asset Team to record and track
    relevant seizure and forfeiture information as well as provide
    standardized reports of asset management activities to Asset
    Forfeiture Division management. This recommendation can be
    closed when the USMS offers evidence that Asset Forfeiture Division
    management is receiving standardized and accurate records of
    Complex Asset Team activities.



                                77 

15. Resolved.	 The USMS concurred with our recommendation to
    ensure that the Asset Forfeiture Division leadership:
    (1) periodically use CATS (once it is updated to capture asset
    referrals made to the Complex Asset Team) to identify assets
    referred to the Complex Asset Team and (2) reconcile the CATS list
    against submitted Complex Asset Team activity reports. The USMS
    stated that the Asset Forfeiture Division Audits and Internal
    Controls Team is reconciling Complex Asset Team reports with
    CATS reports, which will become easier once CATS is adjusted to
    categorize assets as complex. This recommendation can be closed
    when the USMS provides evidence that the Asset Forfeiture Division
    leadership periodically uses the updated CATS function to identify
    assets referred to the Complex Asset Team and reconciles the
    CATS-identified assets against submitted Complex Asset Team
    activity reports.

16. Resolved.	 The USMS concurred with our recommendation to
    evaluate the level of authority granted to the position of Complex
    Asset Team Leader and develop a tiered-approval structure that
    includes documenting Asset Forfeiture Division executive approval
    for asset management decisions related to high-value assets. The
    USMS provided a revised Asset Forfeiture Division organizational
    chart, indicating that the Complex Asset Team now reports to a
    Program Manager of Operations. The USMS stated that, once fully
    staffed, the Complex Asset Team will be led by an Assistant
    Program Manager of Complex Assets and will also have three full-
    time Case Coordinators, a dedicated Forfeiture Financial Specialist
    at Asset Forfeiture Division headquarters, and two contractor
    records examiners.

    The USMS cited the fact that it recently created and implemented a
    working job description for the Case Coordinator position, which
    separated the responsibilities of the Assistant Program Manager
    from those of individuals performing the day-to-day functions of the
    Complex Asset Team. The USMS also stated in its response that
    delegation of authority statements have been developed for each
    Complex Asset Team position and provided an example of such a
    statement. This recommendation can be closed when the USMS
    provides evidence that demonstrates that Asset Forfeiture Division
    leadership is reviewing asset management decisions related to
    high-value assets and documenting its approvals.




                                78 

17. Resolved. 	The USMS concurred with our recommendation to
    establish an internal review regimen tailored to assess the handling
    of all assets, including Frozen, Indicted, Restrained, or Encumbered
    (FIRE) assets, administered by the Complex Asset Team. While the
    USMS stated that in past years it had lacked the infrastructure
    necessary to implement an effective internal review process, it has
    requested and received funding for additional positions to address
    this need. The USMS stated that it utilized these resources to build
    the infrastructure of the Asset Forfeiture Division Audits and
    Internal Controls Review Unit, which will assist the Asset Forfeiture
    Division in implementing this recommendation. This
    recommendation can be closed when the USMS demonstrates that
    it has implemented an internal review regimen that assesses the
    Complex Asset Team’s handling of all assets, including FIRE assets.

18. Resolved. 	The USMS concurred with our recommendation to
    ensure the Complex Asset Team develops a consistent consultation
    process with its Office of General Counsel. In its response, the
    USMS stated Asset Forfeiture Division leadership requested in 2007
    that the USMS Office of General Counsel (OGC) play a more active
    role in the complex asset process. The USMS also stated that since
    2009, its OGC has sought to add attorneys to bolster its skills
    relating to commercial transactions, securities, and corporate legal
    matters, allowing it to work with the Asset Forfeiture Division on
    issues directly relevant to complex asset administration. The USMS
    moreover stated that the Complex Asset Team has regularly
    consulted with its OGC and explained that it has requested a new
    Asset Forfeiture Commercial Transaction Attorney who will be
    dedicated to providing pre- and post-seizure legal services in
    complex asset cases. The USMS also stated that in August 2009 a
    Presidential Management Fellow with both a law degree and a
    Masters in Business Administration joined the Complex Asset Team
    and works closely with the OGC Asset Forfeiture Team.

    While the USMS contends the communication between the Complex
    Asset Team and its OGC has improved in recent years, we note
    that, based on the evidence available for our audit, the Complex
    Asset Team did not appear to consistently or proactively obtain
    legal counsel regarding asset management issues until after
    Briskman’s transfer in April 2010. This recommendation can be
    closed when the USMS provides evidence that the Complex Asset
    Team proactively consults with its OGC on applicable and relevant
    complex asset matters.


                                 79 

19. Resolved. 	The USMS concurred with our recommendation to
    evaluate whether forfeiture financial specialist contractors should be
    provided a more definitive role with the Complex Asset Team. The
    USMS stated that in August 2009, it requested an additional eight
    forfeiture financial specialists to compose a “Jump Team” dedicated
    to complex assets and pre-seizure planning. According to the
    USMS, funding was approved for fiscal year 2010 and as of August
    2011, there were three forfeiture financial specialists, staffed in the
    Complex Asset Team headquarters, the Southern District of New
    York, and the Middle District of Florida. This recommendation can
    be closed when the USMS provides evidence that demonstrates
    these initiatives have been implemented and the forfeiture financial
    specialists are performing functions that address the relevant
    internal control deficiencies highlighted in our report.

    The USMS asserted that from the inception of the forfeiture
    financial specialist program, one specialist was dedicated to working
    pre-seizure and complex asset cases hand-in-hand with the
    U.S. Attorney’s Office and the other specialist on-board was
    assigned complex assets as a collateral responsibility. However,
    our report emphasizes that during the scope of our review, which
    ended in April 2010, the program generally had no formal or
    primary functional responsibility with the Complex Asset Team at
    USMS headquarters. The USMS recognized that the forfeiture
    financial specialist program during our scope did not have the
    capacity to support all of its intended duties, and listed complex
    asset assistance as a tertiary function.

20. Resolved. 	The USMS agreed with our recommendation to ensure
    that managers know that they must thoroughly review financial
    disclosure forms and disclose any potential conflicts of interest to
    the USMS ethics office. The USMS stated in its response that Asset
    Forfeiture Division Executive Team members have been briefed on
    this matter and will be reminded annually as the review of
    disclosure forms occurs. In addition, the USMS stated that its
    Ethics Office is developing an online training for all USMS
    supervisors on their role regarding the financial disclosure forms.
    This recommendation can be closed when we receive evidence that
    the USMS has developed and provided this instruction.




                                 80 

